<html>
<title> - Xinjiang</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                                XINJIANG

=======================================================================

                               REPRINTED

                                from the

                           2008 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                             -------
                   U.S. GOVERNMENT PRINTING OFFICE
46-038 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001









              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

SANDER LEVIN, Michigan, Chairman      BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                    MAX BAUCUS, Montana
TOM UDALL, New Mexico                 CARL LEVIN, Michigan
MICHAEL M. HONDA, California          DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota            SHERROD BROWN, Ohio
CHRISTOPHER H. SMITH, New Jersey      CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California           SAM BROWNBACK, Kansas
DONALD A. MANZULLO, Illinois          GORDON H. SMITH, Oregon
JOSEPH R. PITTS, Pennsylvania         MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director
             Charlotte Oldham-Moore, Deputy Staff Director





 
                                Xinjiang

                                Findings

        <bullet> Human rights abuses in the Xinjiang Uyghur 
        Autonomous Region (XUAR) remained severe, and 
        repression increased in the past year. Authorities 
        tightened repression amid preparations for the 2008 
        Beijing Summer Olympic Games, limited reports of 
        terrorist and criminal activity, and protests among 
        ethnic minorities.
        <bullet> The Chinese government used anti-terrorism 
        campaigns as a pretext for enforcing repressive 
        security measures, especially among the ethnic Uyghur 
        population, including wide-scale detentions, 
        inspections of households, restrictions on Uyghurs' 
        domestic and international travel, restrictions on 
        peaceful protest, and increased controls over religious 
        activity and religious practitioners.
        <bullet> Anti-terrorism and anti-crime campaigns have 
        resulted in the imprisonment of Uyghurs for peaceful 
        expressions of dissent, religious practice, and other 
        non-violent activities.
        <bullet> The government also continued to strengthen 
        policies aimed at diluting Uyghur ethnic identity and 
        promoting assimilation. Policies in areas such as 
        language use, development, and migration have 
        disadvantaged local ethnic minority residents and have 
        positioned the XUAR to undergo broad cultural and 
        demographic shifts in coming decades.
        <bullet> In the past year, the Commission also observed 
        continuing problems in the XUAR government's treatment 
        of civil society groups, labor policies, population 
        planning practices, judicial capacity, and government 
        policy toward Uyghur refugees and other individuals 
        returned to China under the sway of China's influence 
        in other countries.

                            Recommendations

        <all> Support legislation that expands U.S. Government 
        resources for raising awareness of human rights 
        conditions in the Xinjiang Uyghur Autonomous Region 
        (XUAR) and for protecting Uyghur culture.
        <all> Raise concern about conditions in the XUAR to 
        Chinese officials and stress that protecting the rights 
        of XUAR residents is a crucial step for securing true 
        stability in the region. Condemn the use of the global 
        war on terror as a pretext for suppressing human 
        rights. Call for the release of citizens imprisoned for 
        advocating ethnic minority rights or for their personal 
        connection to rights advocates, including: Nurmemet 
        Yasin (sentenced in 2005 to 10 years in prison after 
        writing a short story); Abdulghani Memetemin (sentenced 
        in 2003 to 20 years in prison for providing information 
        on government repression to an overseas human rights 
        organization); and Alim and Ablikim Abdureyim (adult 
        children of activist Rebiya Kadeer, sentenced in 2006 
        and 2007 to 7 and 9 years in prison, respectively, for 
        alleged economic and ``secessionist'' crimes); and 
        other prisoners mentioned in this report and the 
        Commission's Political Prisoner Database.
        <all> Support funding for non-governmental 
        organizations that address human rights issues in the 
        XUAR to enable them to continue to gather information 
        on conditions in the region and develop programs to 
        help Uyghurs increase their capacity to defend their 
        rights and protect their culture, language, and 
        heritage.
        <all> Indicate to Chinese officials that Members of the 
        U.S. Congress and Administration are aware that Chinese 
        authorities themselves have called for improving 
        conditions in the XUAR judiciary. Urge officials to 
        take steps to address problems stemming from the lack 
        of personnel proficient in ethnic minority languages. 
        Call on rule of law programs that operate within China 
        to devote resources to the training of legal personnel 
        who are able to serve the legal needs of ethnic 
        minority communities within the XUAR.

      Human Rights Abuses in the Xinjiang Uyghur Autonomous Region


                              INTRODUCTION

    Human rights abuses in the Xinjiang Uyghur Autonomous 
Region (XUAR) remain severe, and repression increased in the 
past year. As detailed by the Commission in past Annual 
Reports,\1\ the government uses anti-terrorism campaigns as a 
pretext for enforcing repressive security measures and for 
controlling expressions of religious and ethnic identity, 
especially among the ethnic Uyghur population, within which it 
alleges the presence of separatist activity. It enforces 
``strike hard'' anti-crime campaigns against the government-
designated ``three forces'' of terrorism, separatism, and 
extremism to imprison Uyghurs for peaceful expressions of 
dissent, 
religious practice, and other non-violent activities. In the 
past year, the government used these longstanding campaigns as 
a springboard to increase repressive practices amid 
preparations for the 2008 Beijing Summer Olympic Games, reports 
of terrorist activity, and protests among ethnic minorities. In 
the past year, the government also continued to strengthen 
policies aimed at diluting Uyghur ethnic identity and promoting 
assimilation. Policies in areas such as language use, 
development, and migration have disadvantaged local ethnic 
minority residents and have positioned the XUAR to undergo 
broad cultural and demographic shifts in coming decades.
    Government policy in the XUAR violates China's own laws and 
contravenes China's international obligations to safeguard the 
human rights of XUAR residents. The government has failed to 
implement its legally stipulated ``regional ethnic autonomy'' 
system in a manner that provides XUAR residents with meaningful 
control over their own affairs. Instead, authorities exert 
central and local government control at a level antithetical to 
regional autonomy. Government policies violate the basic human 
rights of XUAR residents and have a disparate impact on ethnic 
minorities.\2\

  ANTI-TERRORISM POLICIES, ANTI-CRIME CAMPAIGNS, AND SECURITY MEASURES

    The Chinese government uses anti-terrorism campaigns as a 
pretext for enforcing harsh security policies in the XUAR. In 
the past year the government used security preparations for the 
2008 Beijing Summer Olympic Games, reports of terrorist 
activity, and protests in Tibetan areas of China and within the 
XUAR as platforms for advancing repressive security measures in 
the region. In spring 2008, the Chinese government claimed it 
had broken up three terrorist plots to disrupt the Olympics, as 
well as an attempted terrorist attack on an aircraft. As in the 
past,\3\ however, the government provided scant evidence to 
back up its claims and continued to enforce restrictions on 
free press that hindered efforts to report on the region.\4\ 
During the same period, local governments implemented a series 
of measures to tighten security, restrict religious activity, 
and hinder citizen activism.\5\ In March 2008, authorities in 
Hoten district suppressed demonstrations by Uyghurs calling for 
human rights and detained protesters.\6\ The government 
continued to implement repressive security measures throughout 
the summer, during which time the Olympic torch passed through 
the XUAR in June\7\ and as the government provided limited 
reports of terrorist and criminal activity in the region in 
August.\8\ Measures reported by Chinese government sources or 
overseas observers included wide-scale detentions, inspections 
of households, restrictions on Uyghurs' domestic and 
international travel, controls over Uyghur Web sites, and 
increased surveillance over XUAR religious personnel, mosques, 
and religious practitioners, as well as increased monitoring of 
other populations.\9\ [For more information, see box titled 
Increased Repression in Xinjiang During the Olympics below.] 
Authorities in cities outside of the XUAR also increased 
controls over Uyghur residents leading up to and during the 
Olympics.\10\ In the aftermath of the Olympics, XUAR chair Nur 
Bekri outlined increased measures to ``strike hard'' against 
perceived threats in the region, casting blame on U.S.-based 
Uyghur rights activist Rebiya Kadeer and ``western hostile 
forces.'' \11\ Local governments and other authorities reported 
carrying out propaganda education campaigns, and in September, 
XUAR Communist Party Secretary Wang Lequan described plans to 
launch regionwide anti-separatism education later in the 
year.\12\
    ``Strike hard'' anti-crime campaigns in the region have 
resulted in high rates of incarceration of Uyghurs in the 
XUAR.\13\ Statistics from official Chinese sources indicate 
that cases of endangering state security from the region 
account for a significant percentage of the nationwide total, 
in some years possibly comprising most of the cases in 
China.\14\ In 2007, the head of the Xinjiang High People's 
Court said that the region bears an ``extremely strenuous'' 
caseload for crimes involving endangering state security.\15\ 
In August 2008, Chinese media reported that XUAR courts would 
``regard ensuring [state] security and social stability [as] 
their primary task.'' \16\

------------------------------------------------------------------------
          Increased Repression in Xinjiang During the Olympics
-------------------------------------------------------------------------
  Officials in the Xinjiang Uyghur Autonomous Region (XUAR) reiterated a
 pledge in August 2008 to use harsh security measures to crack down
 against the government-designated ``three forces'' of terrorism,
 separatism, and extremism.\17\ On August 13, Wang Lequan, XUAR
 Communist Party Chair, described the battle against the ``three
 forces'' as a ``life or death struggle'' and pledged to ``strike hard''
 against their activities. XUAR Party Committee Standing Committee
 member Zhu Hailun reiterated the call to ``strike hard'' at an August
 18 meeting. The announcements followed the release of limited
 information on terrorist and criminal activity in the region and came
 amid a series of measures that increased repression in the XUAR. The
 measures build off of earlier campaigns to tighten repression in the
 region, including efforts to tighten control as the Olympic torch
 passed through the region in June. Reported measures implemented in the
 run-up to and during the 2008 Beijing Summer Olympic Games include:
  <bullet> Wide-scale Detentions. Authorities have carried out wide-
   scale detentions as part of security campaigns in cities throughout
   the XUAR, according to a report from the Uyghur Human Rights Project.
   Reported measures include ``security sweeps'' resulting in mass
   detentions in the Kashgar area and Kucha county, including blanket
   detentions in Kucha of young people who have been abroad; the
   detention of non-resident Uyghurs in Korla city; the forced return of
   Uyghur children studying religion in another province and their
   detention in the XUAR for engaging in ``illegal religious
   activities''; and the detention of family members or associates of
   people suspected to be involved in terrorist activity.
  <bullet> Restrictions on Uyghurs' Domestic and International Travel.
   Authorities reportedly continued to hold Uyghurs' passports over the
   summer, building off of a campaign in 2007 to confiscate Muslims'
   passports and prevent them from making overseas pilgrimages,
   according to reports from overseas media. Authorities also coupled
   restrictions on overseas travel with reported measures to limit
   Uyghurs' travel within China.
------------------------------------------------------------------------


------------------------------------------------------------------------
     Increased Repression in Xinjiang During the Olympics--Continued
-------------------------------------------------------------------------
  <bullet> Controls Over Religion. XUAR officials have enforced a series
   of measures that ratchet up control over religious practice in the
   region, according to reports from Chinese and overseas sources.
   Authorities in Yengisheher county in Kashgar district issued
   accountability measures on August 5 to hold local officials
   responsible for high-level surveillance of religious activity in the
   region. Also in August, authorities in Peyziwat county, Kashgar
   district, called for ``enhancing management'' of groups including
   religious figures as part of broader government and Party measures of
   ``prevention'' and ``attack.'' The previous month, authorities in
   Mongghulkure county, Ili Kazakh Autonomous Prefecture, called for
   strengthening management of religious affairs; inspecting all mosques
   and venues for religious activity; curbing ``illegal'' recitations of
   scripture and non-government-approved pilgrimages; and
   ``penetrating'' groups of religious believers to understand their
   ways of thinking. Authorities in Lop county, Hoten district, have
   been forcing women to remove head coverings in a stated effort to
   promote ``women for the new era.'' Authorities have also continued to
   enforce measures to restrict observance of the Muslim holiday of
   Ramadan, which, in 2008, took place in September.\18\
  <bullet> Controls Over Free Expression. Authorities in the XUAR
   ordered some Uyghur Web sites to shut down their bulletin board
   services (BBS) during the Olympics, according to Radio Free Asia. In
   a review of Uyghur Web sites carried out during the Olympics,
   Commission staff found that BBSs on the Web sites Diyarim, Orkhun,
   and Alkuyi had been suspended. The BBS Web page on Diyarim contained
   the message, ``[L]et's protect stability with full strength and
   create a peaceful environment for the Olympic Games[!] Please visit
   other Diyarim pages[.]'' The message on the BBS Web page on Orkhun
   stated, ``Based on the requirements of the work units concerned, the
   Orkhun Uyghur history Web site has been closed until August 25
   because of the Olympic Games.''
  <bullet> Inspections of Households in Ghulja. Authorities in the
   predominantly ethnic minority city of Ghulja searched homes in the
   area in July in a campaign described by a Chinese official as aimed
   at rooting out ``illegal activities'' and finding residents living
   without proper documentation, according to Radio Free Asia.
------------------------------------------------------------------------

                    FREEDOM OF RELIGION IN XINJIANG

    The government imposes harsh restrictions over religious 
practice in the XUAR. [For detailed information, see Section 
II--Freedom of Religion--China's Religious Communities--Islam.]

               CONTROLS OVER FREE EXPRESSION IN XINJIANG

    Authorities in the XUAR repress free speech. Authorities 
have levied prison sentences on individuals for forms of 
expression ranging from conducting historical research to 
writing literature. [For more information on these cases, see 
box titled Speaking Out: Uyghurs Punished for Free Speech in 
Xinjiang below.] In August 2008, Mehbube Ablesh, an employee in 
the advertising department at the Xinjiang People's Radio 
Station was fired from her job and detained in apparent 
connection to her writings on the Internet that were critical 
of the government.\19\ The government engages in broad 
censorship of political and religious materials. In 2008, the 
XUAR Propaganda Bureau announced it would make ``illegal'' 
political and religious publications the focal point of its 
campaign to ``Sweep Away Pornography and Strike Down Illegal 
Publications.'' \20\ The focus on religious and political 
materials builds off of earlier campaigns to root out such 
publications.\21\ Also in 2008, officials in Atush city 
reported finding ``illegal'' portraits of Uyghur activist 
Rebiya Kadeer and pictures with religious content.\22\ [For 
more information on Rebiya Kadeer, see box titled The Chinese 
Government Campaign Against Rebiya Kadeer below.] In addition, 
authorities closed some Uyghur-language Internet discussion 
forums during the period of the 2008 Beijing Summer Olympic 
Games.\23\
    Central and local authorities further regulate religious 
expression by controlling the contents of materials published 
by the 
Islamic Association of China, a Communist Party ``mass 
organization'' that, along with local branches, controls Muslim 
practice in China.\24\ Authorities have detained individuals 
for their possession of unauthorized religious texts.\25\

        LANGUAGE POLICY AND ``BILINGUAL'' EDUCATION IN XINJIANG

    In recent years the XUAR government has taken steps to 
diminish the use of ethnic minority languages in XUAR schools 
via 
``bilingual'' and other educational policies that place primacy 
on Mandarin, such as by eliminating ethnic minority language 
instruction or relegating it solely to language arts 
classes.\26\ The policies contravene provisions in Chinese law 
to protect ethnic minority languages and promote their use as 
regional lingua franca.\27\ According to reports from official 
Chinese media, by 2006, the number of students receiving 
``bilingual'' education in the XUAR had expanded 50-fold within 
six years.\28\ Although the long-term impact remains unclear, 
sustained implementation of Mandarin-focused ``bilingual'' 
education and other language policies increases the risk that 
Uyghur and other ethnic minority languages are eventually 
reduced to cultural relics rather than actively used languages 
in the XUAR. [For more information on ``bilingual'' education, 
see Addendum: ``Bilingual'' Education in Xinjiang at the end of 
this section.]

------------------------------------------------------------------------
       Speaking Out: Uyghurs Punished for Free Speech in Xinjiang
-------------------------------------------------------------------------
  As detailed by the Commission in past Annual Reports,\29\ Chinese
 authorities have detained or imprisoned ethnic Uyghurs for various
 forms of peaceful expression, including non-violent dissent. Such cases
 include:

  <bullet> Tohti Tunyaz, a Uyghur historian living in Japan whom Chinese
   authorities detained in 1998 while he was visiting the Xinjiang
   Uyghur Autonomous Region (XUAR) to conduct research. He received an
   11-year sentence in 1999 for ``stealing state secrets'' and
   ``inciting splittism,'' based on a list of documents he had collected
   from official sources during the course of his research, and on a
   ``separatist'' book he had allegedly published.\30\
  <bullet> Abduhelil Zunun, who received a 20-year sentence in November
   2001 after translating the Universal Declaration of Human Rights into
   the Uyghur language.\31\
  <bullet> Abdulghani Memetemin, a journalist sentenced to nine years'
   imprisonment in 2003 after providing information on government
   repression against Uyghurs to an overseas organization. Authorities
   characterized this act as ``supplying state secrets to an
   organization outside the country.''
  <bullet> Abdulla Jamal, a teacher arrested in 2005 for writing a
   manuscript that authorities claimed incited separatism.\32\
  <bullet> Nurmemet Yasin, a writer who received a 10-year sentence in
   2005 for ``inciting splittism'' after he wrote a story about a caged
   bird who commits suicide rather than live without freedom.\33\
  <bullet> Korash Huseyin, chief editor of the journal that published
   Yasin's story, who received a three-year sentence in 2005 for
   ``dereliction of duty.'' Huseyin's sentence expired in February 2008,
   and he is presumed to have since been released from prison.\34\
  <bullet> Mehbube Ablesh, an employee in the advertising department at
   the Xinjiang People's Radio Station, who was fired from her job in
   August 2008 and detained in apparent connection to her writings on
   the Internet that were critical of government policies, including
   bilingual education.\35\
------------------------------------------------------------------------

                       CIVIL SOCIETY IN XINJIANG

    XUAR government policy hinders the growth of civil society 
in the region. Authorities have banned gatherings of private 
Islam-centered social groups, which had aimed at addressing 
social problems like drug use and alcoholism.\36\ Fears of 
citizen activism have prompted the suppression of locally led 
political movements, including demonstrations in Hoten district 
in March led by women protesting repressive policies in the 
region.\37\ Government policy in the XUAR also affects the work 
of non-governmental organizations (NGOs) that aim to research 
conditions in the region. In July 2007, authorities in Beijing 
ordered the Beijing-based foreign NGO publication China 
Development Brief to stop publishing its Chinese-language 
edition and accused the English-language editor of having ties 
to Xinjiang ``separatist'' groups.\38\ Though the charge of 
contact with these groups may have served as a cover for other 
motivations for barring the publication,\39\ that authorities 
wield contact with overseas Uyghur organizations as such a 
pretext presents a chilling effect on organizations that 
research the XUAR.\40\ [For more information, see Section III--
Civil Society.]

         MIGRATION AND POPULATION PLANNING POLICIES IN XINJIANG

    While the Commission supports Chinese government 
liberalizations that give citizens more choices to determine 
their places of residence,\41\ the Commission remains concerned 
about government policies that use economic and social 
benefits\42\ to channel migration to the XUAR and engineer 
demographic changes in the region.\43\ The government has 
touted migration policies as a means to promote development and 
ensure ``stability'' and ``ethnic unity.'' \44\ Demographic 
shifts have skewed employment prospects in favor of Han Chinese 
and funneled resources in their favor.\45\ In addition, 
migration also has created heavy social and linguistic 
pressures on local ethnic minority residents.\46\
    The Commission also remains concerned that while the 
government promotes migration to the region,\47\ it implements 
policies that target birth rates among local ethnic minority 
groups to reduce population increases.\48\ In 2008, the 
government reported that the XUAR had achieved 65,000 fewer 
births in 2007 under policies of providing rewards to families 
who had fewer children than legally permitted.\49\ Overseas 
Uyghur rights advocates have reported that authorities have 
carried out forced sterilizations and forced abortions to 
implement population planning policies.\50\

------------------------------------------------------------------------
          The Chinese Government Campaign Against Rebiya Kadeer
-------------------------------------------------------------------------
  The government has waged a longstanding campaign against Uyghur rights
 activist Rebiya Kadeer. Authorities sentenced her in 2000 to eight
 years in prison for ``supplying state secrets or intelligence to
 entities outside China,'' after she sent newspaper clippings to her
 husband in the United States. Kadeer has reported that before her
 release on medical parole in 2005, Chinese authorities threatened
 repercussions against her family members and business interests if she
 discussed Uyghur human rights issues in exile. Soon after Kadeer moved
 to the United States, authorities began a campaign of harassment
 against her family members remaining in the Xinjiang Uyghur Autonomous
 Region (XUAR), culminating in the imprisonment of two of her sons in
 2006 and 2007.\51\
  <bullet> In May 2005, authorities detained Aysham Kerim and Ruzi
   Mamat, two employees at Kadeer's trading company in the XUAR, and
   attempted to take her son, Ablikim Abdureyim, into detention.
   Authorities ransacked the company offices at the same time and
   confiscated documents. Authorities released Aysham Kerim and Ruzi
   Mamat in December 2005, after detaining them for seven months without
   charges.\52\
  <bullet> In August 2005, Radio Free Asia reported that authorities in
   the XUAR had formed a special office to monitor Kadeer's relatives
   and business ties in the XUAR. Around the same time, authorities
   detained two of Kadeer's relatives to pressure them to turn in their
   passports.\53\
------------------------------------------------------------------------


------------------------------------------------------------------------
    The Chinese Government Campaign Against Rebiya Kadeer--Continued
-------------------------------------------------------------------------
  <bullet> In April 2006, authorities held Kadeer's son, Alim Abdureyim,
   in custody and informed him that he was under suspicion for evading
   taxes.\54\
  <bullet> Authorities held Alim in custody again in late May 2006,
   along with his brother, Ablikim, and sister, Roshengul, and
   authorities later placed Alim and Ablikim in criminal detention and
   Roshengul under house arrest. Authorities beat Alim and Ablikim while
   in custody. In June, authorities took their brother Kahar into
   custody as well and charged him with tax evasion, Alim with tax
   evasion and splittism, and Ablikim with subversion of state power.
   Alim reportedly confessed to the charges against him after being
   tortured. During the same period, authorities placed Kadeer's brother
   under house arrest and other family members under surveillance,
   including grandchildren whom authorities prevented from leaving home
   to attend school.\55\
  <bullet> On November 27, 2006, an Urumqi court sentenced Alim to seven
   years in prison and fined him 500,000 yuan (US$62,500) for tax
   evasion. The court imposed a 100,000 yuan (US$12,500) fine on Kahar,
   also for tax evasion. Kadeer described the cases against her sons as
   a ``vendetta'' against her. Sources had informed her that authorities
   would offer leniency to her children if she refrained from
   participating in a November 26 election for presidency of the World
   Uyghur Congress.\56\
  <bullet> An Urumqi court sentenced Ablikim to nine years in prison and
   three years' deprivation of political rights on April 17, 2007, for
   ``instigating and engaging in secessionist activities,'' alleging he
   disseminated pro-secession articles, planned to incite anti-
   government  protest, and wrote an essay misrepresenting human rights
   conditions in the XUAR.\57\ Both Alim and Ablikim remain in prison,
   where they are reported to have been tortured and abused, and where
   Ablikim is reported to be in poor physical health without adequate
   medical care.\58\
------------------------------------------------------------------------

                     DEVELOPMENT POLICY IN XINJIANG

    Development policies in the XUAR have brought mixed results 
for ethnic minority residents. While economic reforms and 
development projects have raised living standards in the 
region,\59\ they also have spurred migration,\60\ strained 
local resources,\61\ and disproportionately benefited Han 
Chinese.\62\ Han benefit through 
development projects focused on Han-majority regions and 
development-related employment prospects that privilege Han 
areas and Han employees.\63\ Development policies in the XUAR 
reflect tight central government control over the region\64\ 
and are intertwined with policies to promote ``social 
stability.'' \65\ In the past year, the government reported on 
development projects directed at improving conditions for 
ethnic minority residents, but the overall impact remains 
unclear.\66\

                      LABOR CONDITIONS IN XINJIANG

    The government enforces repressive labor policies, 
including measures that have a disproportionate negative impact 
on ethnic minorities. While the Chinese government continues to 
fill local jobs in the XUAR with migrant labor, it also 
maintains programs that send young ethnic minorities to work in 
factories in China's interior.\67\ Authorities reportedly have 
coerced participation and subjected workers to abusive labor 
practices.\68\ In addition, in 2007 and 2008, overseas media 
reported that authorities in the XUAR continued to impose 
forced labor on area farmers in predominantly ethnic minority 
regions.\69\ The XUAR government also continues to impose 
forced labor on local students to meet yearly harvesting 
quotas. In 2007, Chinese media reported that work-study 
programs requiring students to pick cotton have decreased in 
recent years, but also reported that some 1 million students 
picked cotton in the region that year.\70\ In addition, both 
public and private employers continue to enforce discriminatory 
job hiring practices that limit job prospects for ethnic 
minorities.\71\ [For more information on labor conditions, see 
Addendum: Labor Conditions in Xinjiang at the end of this 
section.]

                     ACCESS TO JUSTICE IN XINJIANG

    Ethnic minority residents in the XUAR face special barriers 
to accessing China's legal system. In addition to financial 
shortfalls and general personnel shortages, the XUAR judicial 
system lacks a sufficient number of legal personnel and 
translators who speak ethnic minority languages, entrenching 
systemic procedural irregularities into the judicial process 
and undercutting legal bases that guarantee the use of ethnic 
minority languages in judicial proceedings.\72\ [For detailed 
information, see Addendum: Access to Justice in Xinjiang.]

------------------------------------------------------------------------
                 Spotlight: Uyghur Refugees and Migrants
-------------------------------------------------------------------------
  Chinese government repression in the Xinjiang Uyghur Autonomous Region
 (XUAR) has forced some Uyghurs into exile, where, depending on their
 destination or transit country, they face an uncertain legal status,
 barriers to local asylum proceedings, and risk of refoulement to China
 under the sway of Chinese influence and in violation of international
 protections. Uyghur migrants outside the refugee and asylum-seeker
 population also face dangers, as China's increasing influence in
 neighboring countries has made Uyghur migrant communities there
 vulnerable to harassment and to deportation proceedings without
 adequate safeguards. A summary of key concerns follows:\73\

China's Increasing Influence\74\

  <bullet> China has exerted a strong influence on neighboring countries
   through mechanisms including bilateral agreements and the multi-
   country Shanghai Cooperation Organization (SCO).
------------------------------------------------------------------------


------------------------------------------------------------------------
           Spotlight: Uyghur Refugees and Migrants--Continued
-------------------------------------------------------------------------
  <bullet> Under the SCO, member countries agree to cooperate in anti-
   terrorism activities. China has been a key player in advancing
   cooperation and promoting campaigns that use the fight against
   terrorism as a pretext for repressive policies against Uyghurs both
   inside and outside China.

Vulnerabilities Outside China

  <bullet> In some neighboring countries, Uyghurs are unable to apply
   for asylum locally, increasing their vulnerability as they seek other
   forms of protection, such as by applying for refugee status through
   the UN High Commissioner for Refugees (UNHCR) and resettling in a
   third country.\75\

      In one neighboring country, Chinese influence reportedly has
     swayed authorities to block Uyghurs' access to local asylum
     proceedings, while letting asylum seekers of most other
     nationalities apply.
      Access to local asylum proceedings would increase the likelihood
     that authorities safeguard the rights of asylum seekers during the
     refugee status determination process. In one of China's neighboring
     countries, for example, extradition proceedings are suspended for
     individuals who seek asylum locally.

  <bullet> Some countries have extradited Uyghurs with UNHCR refugee
   status to China, where they have faced abuse, imprisonment, and risk
   of execution.\76\ In other cases, the UNHCR has been unable to gain
   access to individuals who want to initiate asylum proceedings,
   including some people who reportedly have been deported to China
   without adequate safeguards.
Violations of International Law
  <bullet> The 1951 Convention Relating to the Status of Refugees\77\
   forbids the return of refugees to ``the frontiers of territories
   where his life or freedom would be threatened on account of his race,
   religion, nationality, membership of a particular social group or
   political opinion.''
  <bullet> Under the Convention Against Torture,\78\ ``No State Party
   shall expel, return (`refouler') or extradite a person to another
   State where there are substantial grounds for believing that he would
   be in danger of being subjected to torture.''
  <bullet> China violates international protections for freedom of
   movement\79\ by denying travel documents to family members of
   refugees who are entitled to derivative refugee status.
------------------------------------------------------------------------

             ADDENDUM: ``BILINGUAL'' EDUCATION IN XINJIANG

    In recent years the XUAR government has taken steps to 
diminish the use of ethnic minority languages via ``bilingual'' 
and other educational policies that place primacy on Mandarin, 
such as by eliminating ethnic minority language instruction or 
relegating it solely to language arts classes.\80\ Authorities 
justify ``bilingual'' education as a way of ``raising the 
quality'' of ethnic minority students and tie knowledge of 
Mandarin to campaigns promoting patriotism and ethnic 
unity.\81\ XUAR Communist Party Secretary Wang Lequan noted in 
2005 that XUAR authorities are ``resolutely determined'' to 
promote Mandarin language use, which he found ``an extremely 
serious political issue.'' \82\ He has also stated that ethnic 
minority languages lack the content to express complex 
concepts.\83\
    XUAR language policies violate Chinese laws that protect 
and promote the use of ethnic minority languages, which form 
part of broader legal guarantees to protect ethnic minority 
rights and allow autonomy in ethnic minority regions. For 
example, Article 4 of the Chinese Constitution and Article 10 
of the Regional Ethnic Autonomy Law (REAL) guarantee that 
ethnic minorities have ``the freedom to use and develop'' their 
languages.\84\ In the area of education, Article 37 of the REAL 
stipulates that ``[s]chools (classes) and other educational 
organizations recruiting mostly ethnic minority students 
should, whenever possible, use textbooks in their own languages 
and use these languages as the media of instruction.'' \85\ 
While educational programs that diminish the use of ethnic 
minority languages respond to a growing need for fluency in 
Mandarin to achieve educational and professional advancement, 
XUAR officials do not acknowledge that the need stems from 
official failures to implement autonomy in ethnic minority 
regions as provided for in Chinese law.\86\
    Government efforts to limit minority language use have 
intensified in recent years, through both ``bilingual'' 
programs and other efforts. In 2004, the XUAR government issued 
a directive to accelerate the development of ``bilingual'' 
education.\87\ According to a 2005 Xinjiang Daily article, many 
``bilingual'' programs have moved from offering only math and 
science classes in Mandarin to teaching the entire curriculum 
in Mandarin, except in classes devoted specifically to 
minority-language study.\88\ In 2006, authorities in the 
predominantly Uyghur city of Atush announced that all first-
grade elementary school classes would teach in Mandarin Chinese 
beginning in September 2006 and that all primary and secondary 
schools would be required to teach exclusively in Mandarin by 
2012.\89\ According to a report from official Chinese media, by 
2006, the number of students receiving ``bilingual'' education 
in the XUAR had expanded 50-fold within six years.\90\ 
According to 2007 figures reported by the Xinjiang Education 
Department, more than 474,500 ethnic minority students in 
preschool, elementary school, and secondary school programs, 
including vocational programs, took classes that employed 
``bilingual education.'' According to the Xinjiang Education 
Department, the figure accounts for almost 20 percent of the 
ethnic minority student population and excludes those students 
studying in longstanding programs that track ethnic minority 
students into Mandarin Chinese schooling.\91\ In contrast, in 
1999, experimental ``bilingual'' classes reportedly reach 2,629 
students through 27 secondary schools.\92\ The government 
prepared a draft opinion in 2008 that details steps to further 
expand ``bilingual'' education.\93\
    Authorities also have limited opportunities for XUAR 
residents to obtain higher education and vocational education 
in ethnic minority languages, thereby diminishing the value of 
ethnic minority languages in XUAR schooling and creating an 
incentive for younger students to study in Mandarin instead of 
ethnic minority languages. In May 2002, the XUAR government 
announced that Xinjiang University would change its medium of 
instruction to Mandarin Chinese in first- and second-year 
classes.\94\ In 2005, authorities announced plans to offer two-
year vocational degrees through programs that offer instruction 
entirely in Mandarin Chinese.\95\ Recruitment materials for 
2007 for the Xinjiang Preschool Teachers College stated that 
all classes offered would be taught in Mandarin.\96\
    XUAR authorities also have expanded ``bilingual'' education 
policies to the preschool level, and provide material 
incentives to 
attract students. Authorities issued an opinion in 2005 to 
bolster ``bilingual'' education in XUAR preschools and prepared 
a draft opinion on further expanding ``bilingual'' education, 
including preschool education, in 2008.\97\ In 2006, official 
media reported the government would invest 430 million yuan 
(US$59.76 million) over five years to support ``bilingual'' 
preschool programs in seven prefectures and would aim to reach 
a target rate of over 85 percent of rural ethnic minority 
children in all counties and municipalities able to enroll in 
two years of ``bilingual'' preschool education by 2010.\98\ The 
following year, the XUAR Department of Finance allotted 70.39 
million yuan (US$9.78 million) to cover 
material subsidies for both students and teachers in 
``bilingual'' preschool programs.\99\ In February 2007, 
authorities in the XUAR implemented a program to send student-
teachers from the Xinjiang Preschool Teachers College to 
preschools in Kashgar prefecture to supplement the area's 
shortage of ``bilingual'' teaching staff, providing financial 
and other incentives to the student-teachers in the 
program.\100\ In 2008, the government appeared to have pushed 
back its timeline for reaching target enrollment rates, while 
investing more money to bring this goal to fruition, perhaps 
signifying a firmer and more realistic commitment to promoting 
``bilingual'' preschool education. The government pledged 3.75 
billion yuan (US$549 million) in 2008 for ``bilingual'' 
preschool education and called for achieving a target rate of 
over 85 percent of ethnic minority children in rural areas 
receiving ``bilingual'' education by 2012.\101\ While the 
current scope of the program's coverage varies by locality, 
news from local governments indicates that ``bilingual'' 
preschool programs are already widespread in some areas.\102\ 
According to 2007 figures from the Xinjiang Education 
Department, 180,458 ethnic minority children received 
``bilingual'' preschool education.\103\
    The government's language policies have impacted ethnic 
minority teachers' job prospects. Ethnic minority teachers who 
do not speak Mandarin must face additional language 
requirements that are not imposed on monolingual Mandarin-
speaking teachers. Teachers have reportedly faced dismissal or 
transfers to non-teaching positions for failure to conform to 
new language requirements.\104\
    The Chinese government's current stance on ``bilingual'' 
education hinders productive dialogue on ways to carry forward 
policies in a manner to protect ethnic minority languages. In 
March 2008, XUAR Chair Nur Bekri described criticisms of 
``bilingual'' education as an attack from the ``three forces'' 
of terrorism, separatism, and extremism operating outside 
China. He also claimed that ``bilingual'' education in the 
region equally valued ethnic minority languages and Mandarin, 
despite evidence of the focus on Mandarin from sources 
including official Chinese media.\105\ 
Although the long-term impact remains unclear, sustained 
implementation of Mandarin-focused ``bilingual'' education and 
other language policies increases the risk that Uyghur and 
other ethnic 
minority languages are eventually reduced to cultural relics 
rather than actively used languages in the XUAR.

                 ADDENDUM: LABOR CONDITIONS IN XINJIANG

                            Labor Transfers

    While the Chinese government continues to fill local jobs 
in the XUAR with migrant labor, it also maintains programs that 
send young ethnic minorities to work in factories in China's 
interior under conditions reported to be abusive. Overseas 
sources indicate that local authorities have coerced 
participation and mistreated workers. According to a 2008 
report issued by an overseas human rights organization, local 
officials, following direction from higher levels of 
government, have used ``deception, pressure, and threats'' 
toward young women and their families to gain recruits into the 
labor transfer program. Women interviewed for the report 
described working under abusive labor conditions after being 
transferred to interior factories through the state-sponsored 
programs.\106\ In 2007, Radio Free Asia (RFA) reported on local 
authorities who recruited women under false pretenses to work 
in Shandong province.\107\

                              Forced Labor

    In 2007 and 2008, overseas media reported that authorities 
in the XUAR continued to impose forced labor on area farmers. 
According to reports from RFA, based on official Chinese 
sources and on information provided through interviews with 
officials and residents in the XUAR, in 2007 authorities in 
Yeken (Yarkand) county required 100,000 farmers to turn 
uncultivated land into a nut production base. The farmers, 
whose work included building roadways, forest belts, and 
irrigation canals, reportedly received no pay for their work. 
One resident interviewed by RFA said that residents who refused 
to do the work were fined for each day of labor missed.\108\ 
The Kashgar district government, which publicized information 
about the land cultivation project, including the scope of 
labor involved and the projects completed, did not describe how 
the labor force was recruited or compensated.\109\ Authorities 
reportedly continued to carry out forced labor in 2008, 
requiring local residents in the southern XUAR to plant trees 
and build irrigation works.\110\

                        ``Work-Study'' Programs

    The XUAR government imposes forced labor on local students 
to meet yearly harvesting quotas. Acting under central 
government authority bolstered by local legal directives, XUAR 
authorities implement the use of student labor, including labor 
by young children, via work-study programs to harvest crops and 
do other work. Students work under arduous conditions and do 
not receive pay for their work. While ``work-study'' programs 
exist elsewhere in China, the XUAR work-study program also 
reflects features unique to the region. The central government 
holds close control over both the general XUAR economy and 
through its directly administered Xinjiang Production and 
Construction Corps farms, where some of the region's cotton is 
harvested. The central government placed special focus on 
supporting the XUAR's cotton industry during its 11th Five-Year 
Program, and central, rather than local, authorities reportedly 
made the decision to launch the comprehensive work-study 
program to pick cotton in the XUAR. In 2007, Chinese media 
reported that work-study programs requiring students to pick 
cotton have decreased in recent years, but also reported that 
some 1 million students picked cotton in the region that 
year.\111\

                ADDENDUM: ACCESS TO JUSTICE IN XINJIANG

    Ethnic minority residents in the XUAR face special barriers 
to accessing China's legal system. In addition to financial 
shortfalls and general personnel shortages, the XUAR judicial 
system lacks a sufficient number of legal personnel and 
translators who speak ethnic minority languages, entrenching 
systemic procedural irregularities into the judicial process 
and presenting barriers to citizens' right to have legal 
proceedings conducted in their native language.\112\ According 
to 2007 reports from the Chinese media, 1,948 of 4,552 judges 
in the XUAR were ethnic minorities, and as of September of that 
year, 380 lawyers, or 17 percent of the region's total, were 
ethnic minorities. The reports did not identify the language 
capabilities of these groups.\113\ A law office reported as 
China's first bilingual operation opened in the XUAR in 
2006.\114\
    Recent measures to address shortcomings in the XUAR 
judicial system may have mixed results in meeting the needs of 
ethnic minority residents. Efforts to dispatch legal workers to 
rural areas may strengthen privilege for Mandarin Chinese if 
new personnel are not required to speak ethnic minority 
languages.\115\ Other steps may bring improvements. In 2007, 
the Ili Lawyers Association in the Ili Kazakh Autonomous 
Prefecture, for example, reportedly encouraged law offices to 
increase efforts to recruit ethnic minority graduates who 
majored in law in college or other higher education 
programs.\116\ In September 2007, the government announced a 
program to train 200 native Mandarin-speaking college students 
each year in ethnic minority languages, with the goal of 
addressing general shortages of interpreters.\117\
    The government ties some judicial reform efforts to 
government campaigns to promote ``stability'' and fight the 
government-designated ``three forces'' of terrorism, 
separatism, and extremism. In August 2007, the Supreme People's 
Court (SPC) announced it had launched a work program to have 
judicial institutions nationwide aid XUAR courts, describing 
having stability in the region as part of its strategy for the 
project.\118\ Jiang Xingchang, vice president of the SPC, said 
that China continued to face plots by ``hostile forces in the 
West'' to westernize and divide China, and that ``religious 
extremism'' and ``international terrorism'' remain ``fully 
active'' in the XUAR, while ethnic separatists inside and 
outside the country continue ``sabotage activities.'' \119\ 
Jiang also stated that personnel of the appropriate political 
mindset should be selected for judicial exchange programs in 
the XUAR.\120\ In August 2008, Chinese media reported that XUAR 
courts would ``regard ensuring [state] security and social 
stability [as] their primary task.'' \121\

                       Freedom of Religion--Islam


[EXCERPTED FROM THE CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA'S 2008 
     ANNUAL REPORT--SECTION II, FREEDOM OF RELIGION, PAGES 80-82.]

    Authorities increased repression of Islam in the Xinjiang 
Uyghur Autonomous Region (XUAR) in the past year, while the 
government and Party continued to strictly control the practice 
of Islam in other parts of the country. The Commission observed 
broad measures implemented in the XUAR to increase monitoring 
and control over religious communities and leaders; steps to 
restrict pilgrimages and the observance of religious holidays 
and customs; and continued measures to restrict children's 
freedom of religion. Throughout China, Muslims remained subject 
to state-sanctioned interpretations of their faith and to tight 
state control over their pilgrimage activities.

increased repression in xinjiang

    Authorities increased repression in the XUAR amid 
preparations for the 2008 Beijing Summer Olympic Games, 
protests in Uyghur and Tibetan areas of China, and government 
reports of terrorist and criminal activity in the region. 
During the year, local governments throughout the XUAR reported 
on measures to tighten control over religion, including 
measures to increase surveillance of mosques, religious 
leaders, and practitioners; gather information on 
practitioners' religious activities; curb ``illegal'' scripture 
readings; and increase accountability among implementing 
officials. Authorities connected control of religious affairs 
with measures to promote ``social stability'' and continued 
longstanding campaigns to link Islam to ``extremism'' and the 
threat of terrorism.\122\ In September 2008, XUAR chair Nur 
Bekri called for strengthening controls over religion and for 
increasing political training of religious leaders.\123\ Amid 
preparations in the XUAR for the Olympics, overseas media 
reported in June that authorities in Aqsu district razed a 
privately built mosque for refusing to post pro-Olympics 
posters.\124\
    Local authorities and educational institutions in the XUAR 
continued in 2007 and 2008 to impose restrictions on the 
observance of the holiday of Ramadan, including restrictions on 
state employees' observance of the holiday and prohibitions on 
closing restaurants during periods of fasting.\125\ Overseas 
media reported on the detention of two Muslim restaurant 
managers for failing to abide by instructions to keep 
restaurants open.\126\ Authorities intensified limits on the 
observance of Ramadan with measures to curb broader religious 
and cultural practices.\127\ Some local governments reported on 
measures to prevent women from wearing head coverings.\128\ In 
March, women in Hoten district who demonstrated against various 
human rights abuses in the region protested admonishments 
against such apparel issued during a government campaign to 
promote stability.\129\
    The XUAR government continues to maintain the harshest 
legal restrictions on children's right to practice religion. 
Regionwide legal measures forbid parents and guardians from 
allowing minors to engage in religious activity.\130\ In August 
2008, authorities reportedly forced the return of Uyghur 
children studying religion in another province and detained 
them in the XUAR for engaging in ``illegal religious 
activities.'' \131\ Local governments continued to implement 
restrictions on children's freedom of religion, taking steps 
including monitoring students' eating habits during Ramadan and 
strengthening education in atheism, as part of broader controls 
over religion implemented in the past year.\132\ Overseas 
sources have 
reported that some local governments have enforced restrictions 
on mosque entry by minors, as well as other populations.\133\

restrictions on the freedom to make overseas pilgrimages

    XUAR authorities continued in the past year to support 
measures to prevent Muslims from making pilgrimages outside of 
state channels, following the confiscation of Muslims' 
passports in summer 2007 to restrict private pilgrimages.\134\ 
Officials also reportedly imposed extra restrictions on 
Uyghurs' participation in state-sanctioned pilgrimages.\135\ 
According to overseas media, authorities reportedly gave prison 
sentences to five Uyghur clerics for arranging pilgrimages 
without government permission.\136\
    The central government continued to maintain limits on all 
Muslims' pilgrimage activities, after intensifying state 
controls over the hajj in 2006.\137\ While the government 
permitted more than 10,000 Muslims to make the pilgrimage to 
Mecca under official auspices in 2007,\138\ pilgrims had to 
abide by state controls over the trip. Among various controls, 
participants have been subject to ``patriotic education'' prior 
to departure\139\ and to restrictions on their activities 
within Mecca in a stated effort to guard against contact with 
``East Turkistan forces'' and other ``enemy forces.'' \140\

continuing controls over internal affairs and doctrine

    The government continued to tightly control the internal 
affairs of Muslim communities. The state-controlled Islamic 
Association of China aligns Muslim practice to government and 
Party goals by 
directing the confirmation and ongoing political indoctrination 
of religious leaders, publication of religious texts, and 
content of sermons.\141\ In the past year, authorities called 
for continued measures to control religious doctrine. In a 2008 
interview, Ye Xiaowen, head of the State Administration for 
Religious Affairs, justified state interference in the 
interpretation of Islamic doctrine on the grounds of ``public 
interests.'' \142\ According to a 2008 report from the Ningxia 
Hui Autonomous Region, a Communist Party official who took part 
in leading ``study classes'' for Muslim personnel in the region 
called for ``creatively interpreting and improving'' religious 
doctrine.\143\

                                Endnotes

    \1\ See, e.g., CECC, 2007 Annual Report, 10 October 07, 106-108; 
CECC, 2006 Annual Report, 20 September 06, 90-91; CECC, 2005 Annual 
Report, 11 October 05, 21-23.
    \2\ For detailed information, including information on China's 
domestic and international obligations toward ethnic minorities, see 
Section II--Ethnic Minority Rights, as well as the section on ``Ethnic 
Minority Rights'' in CECC, 2007 Annual Report, 105-108 and ``Special 
Focus for 2005: China's Minorities and Government Implementation of the 
Regional Ethnic Autonomy Law,'' CECC, 2005 Annual Report, 13-23.
    \3\ The government has long claimed the continued existence of 
terrorist and separatist threats through spurious statistics and shoddy 
factual support. For an analysis of Chinese reporting on terrorist 
activity, see ``Uighurs Face Extreme Security Measures; Official 
Statements on Terrorism Conflict,'' CECC China Human Rights and Rule of 
Law Update, May 2006, 12.
    \4\ For an analysis of Chinese reporting on one of the alleged 
terrorist plots and on the aircraft attack, see ``Xinjiang Authorities 
Pledge Crackdown Against `Three Forces,' '' CECC China Human Rights and 
Rule of Law Update, March/April 2008, 2. For more information on two of 
the alleged terrorist plots, see ``Ministry of Public Security 
Circulates Notice on Recently Cracking 2 Cases of Plots To Carry Out 
Terrorist Activity'' [Gong'anbu tongbao jinqi pohuo de liangqi cehua 
shishi baoli kongbu huodong anjian], Tianshan Net (Online), 10 March 
08.
    \5\ For reporting from local Xinjiang government Web sites, see, 
e.g., Kashgar District Government (Online), ``Let Society Be Stable and 
Harmonious, For the People To Be Without Fear--Work Report on Poskam 
County Striving To Establish a Region-Level Quiet and Stable County'' 
[Rang shehui wending hexie wei baixing anjuleye--zepuxian zheng chuang 
zizhiquji ping'an xian gongzuo jishi], 3 December 07; Qumul District 
Government (Online), ``Gulshat Abduhadir Stresses at District Education 
Work Meeting, Enlarge Investments for Optimal Environment'' [Gulixiati 
Abudouhade'er zai diqu jiaoyu gongzuo huiyishang qiangdiao jiada touru 
youhua huanjing], 9 March 08; Kashgar District Government (Online), 
``Yengi Sheher County Takes Forceful Measures to Strengthen Carrying 
Out of Current Stability Work'' [Shulexian caiqu youli cuoshi jiaqiang 
zuohao dangqian wending gongzuo], 31 March 08; Kashgar District 
Government (Online), ``Firmly Grasp Stability Work without Slackening, 
Protect Smooth Carrying Out of the Olympics'' [Hen zhua wei wen 
gongzuobuxiedai bao aoyunhui shunli juban], 31 March 08; Kashgar 
District Government (Online), ``122 Members of `Work Team Dispatched to 
Rural Posts for Olympics Safety and Security' Go to Countryside in 
Yorpugha County'' [Yuepuhuxian 122 ming ``ao yun an bao paizhu xiangcun 
gongzuo duiyuan'' xiacun], 28 March 08. For an example of a security 
measure aimed at XUAR residents living in other parts of China, see 
``Kashgar District Ethnic and Religious Affairs Commission Enters into 
Friendly Cooperation with Wuhan City Ethnic and Religious Affairs 
Commission'' [Kashi diqu minzongwei yu wuhanshi minzongwei jiewei 
youhao xiezuo danwei], China Ethnicities News (Online), 28 February 08. 
Overseas organizations reported on the imposition of martial order 
within Ghulja in late March and April and on curfews in multiple 
cities. Local government Web sites within China appear not to have 
publicized the curfews. International Campaign for Tibet (Online), 
``Tibetan Students Hold Vigil in Beijing; Curfew Imposed in Xinjiang 
Towns,'' 17 March 08; ``FYI--Kashgar, Xinjiang PRC Media Not Observed 
To Report Alleged Curfew,'' Open Source Center, 19 March 08; ``FYI--
Hotan, Xinjiang PRC Media Not Observed To Report Alleged Curfew,'' Open 
Source Center, 19 March 08; ``Chinese Government Exercises Martial 
Alert in Ghulja'' [Xitay hokumiti ghuljida herbiy halet yurguzuwatidu], 
Radio Free Asia (Online), 10 April 08; ``Curfew in Xinjiang Town After 
Police Raids,'' Radio Free Asia (Online), 10 March 08.
    \6\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update, May 2008, 
3.
    \7\ ``The Human Toll of the Olympics,'' CECC China Human Rights and 
Rule of Law Update, August 2008, 2-8.
    \8\ For information on these attacks as reported by official 
Chinese media, see, e.g., ``Police Station Raided in West China's 
Xinjiang, Terrorist Plot Suspected,'' Xinhua, 4 August 08 (Open Source 
Center, 4 August 08); ``Xinjiang Official Calls Monday's Raid on Border 
Police a Terrorist Attack,'' Xinhua, 5 August 08 (Open Source Center, 5 
August 08); ``Bombings Kill Eight, Injure Four in China's Xinjiang,'' 
Xinhua, 10 August 08 (Open Source Center, 12 August 08); Mao Yong and 
Zhao Chunhui, ``(Explosions in Xinjiang's Kuqa) Violent Terrorism in 
Kuqa County, Xinjiang, Effectively Dealt With,'' Xinhua, 10 August 08 
(Open Source Center, 10 August 08); ``Three Security Staff Killed in 
Attack at Road Checkpoint in Xinjiang,'' Xinhua (Online), 12 August 08. 
For an updated report by foreign media on one of the events, see Edward 
Wong, ``Doubt Arises in Account of an Attack in China,'' New York Times 
(Online), 28 September 08.
    \9\ For an overview of these reported measures, see box titled 
Increased Repression in Xinjiang During the Olympics in this section, 
which is drawn from ``Authorities Increase Repression in Xinjiang in 
Lead-up To and During Olympics,'' Congressional-Executive Commission on 
China (Online), 7 October 08. See specific sources at, e.g., Uyghur 
Human Rights Project (Online), ``A Life or Death Struggle in East 
Turkestan; Uyghurs Face Unprecedented Persecution in post-Olympic 
Period,'' 4 September 08, 4-7; ``Homes Raided in Xinjiang,'' Radio Free 
Asia (Online), 23 July 08; Jume, ``Public Security Office Police in 
Ghulja City Ransack Uyghurs' Homes'' [Ghulja shehiri j x idarisi 
saqchiliri uyghurlarning oylirini axturmaqta], Radio Free Asia 
(Online), 17 July 08; ``The Human Toll of the Olympics,'' CECC China 
Human Rights and Rule of Law Update; Dan Martin, ``Uyghurs Discouraged 
From Air Travel Amid China's Olympic Security Clampdown,'' Agence 
France-Presse, 31 July 08 (Open Source Center, 31 July 08); Malcom 
Moore, ``China Tightens Grip on Western Province Xinjiang,'' Telegraph 
(Online), 8 August 08; Gulchehre, ``Chinese Authorities Close Some 
Uyghur Discussion Web Sites During Olympics'' [Xitay dairiliri olimpik 
mezgilide bir qisim uyghur munazire tor betlirini taqidi], Radio Free 
Asia (Online), 14 August 08; ``Crackdown on Xinjiang Mosques, 
Religion,'' Radio Free Asia (Online), 14 August 08; ``Mongghulkure 
County `Protect Olympics, Protect Stability' Supervision Group Reports 
Work to Ili Prefecture'' [Zhaosuxian shang yili zhou ``bao ao yun cu 
wending'' dudao xiaozu huibao gongzuo], Ili Peace Net (Online), 16 July 
08; ``Mongghulkure County Promptly Arranges Implementation of Spirit of 
Ili 7.13 Stability Meeting'' [Zhaosuxian xunsu anpai luoshi yili zhou 
``7.13'' wending huiyi jingshen], Ili Peace Net (Online), 16 July 08; 
Kashgar District Government, ``Usher in the Olympics and Ensure 
Stability; Jiashi People Are of One Heart and Mind,'' 8 August 08 (Open 
Source Center, 8 August 08). See also Controls over Free Expression in 
Xinjiang in this section for more information on controls over Web 
sites.
    \10\ Jake Hooker, ``China Steps Up Scrutiny of a Minority in 
Beijing,'' New York Times (Online), 13 August 08; Josephine Ma, 
``Beijing Security Already High, With More Police Checks on Uygurs 
And,'' [sic] South China Morning Post, 5 August 08 (Open Source Center, 
5 August 08); ``Hotels in All Locations Must Report Tibetans, Uyghurs 
and Other Ethnic Minority Guests'' [Gedi luguan dei tongbao jiangzang 
deng shaoshu minzu zhuke], Radio Free Asia (Online), 30 July 08; 
``Beijing and Shanghai Strengthen Inspection and Control of Uyghurs and 
Tibetans on Eve of Olympics'' [Ao yun qianxi jing hu jiaqiang dui weizu 
zangzuren de jiankong], Radio Free Asia (Online), 27 July 08; ``Olympic 
Terror Clampdown Targets Beijing Uighurs After Attacks,'' Bloomberg 
(Online), 18 August 08.
    \11\  ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er Baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08. For an example of mention of 
Rebiya Kadeer in local government reports, see ``Firmly Grasp the 
Overall Situation, Unite the Masses, Conscientiously Forge Firm 
Foundation to Protect Stability'' [Bawo daju tuanjie qunzhong qieshi da 
lao weiwen jichu], Ili News Net (Online), 21 September 08.
    \12\ For reports from local offices and governments, see, e.g., 
``Zhang Yun Stresses: Make Firm Push To Deepen Educational Activities'' 
[Zhang yun qiangdiao: zhashi ba zhuti jiaoyu huodong tuixiang shenru], 
Ili News Net (Online), 25 September 08; ``Must Have Vigorous Education 
Propaganda'' [Zhuti jiaoyu xuanchuan bixu honghonglielie], Ili Daily 
News reprinted in Ili News Net (Online), 16 September 08; ``Autonomous 
Region Youth League Committee Launches Ethnic Unity Education Practicum 
Activities'' [Zizhiqu tuanwei kaizhan minzu tuanjie jiaoyu shijian 
huodong], Xinjiang Daily (Online), 12 September 08. For Wang's 
comments, see ``Autonomous Region Convenes Cadre Plenary Session on 
Making Concerted Efforts to Safeguard Xinjiang's Social and Political 
Stability'' [Zizhiqu zhaokai ganbu dahui qixinxieli weihu xinjiang 
shehui zhengzhi wending], Tianshan Net (Online), 11 September 08; 
``Wang Lequan's Speech at Autonomous Region 5th Commendation Meeting on 
Advancement of Ethnic Unity'' [Wang Lequan zai zizhiqu di wu ci minzu 
tuanjie jinbu biaozhang dahui shang de jianghua], Tianshan Net 
(Online), 16 September 08.
    \13\ For an overview of incarceration trends from the mid-1990s 
onward, see CECC, 2007 Annual Report, 107 and accompanying footnotes.
    \14\ According to the head of the XUAR High People's Court, since 
2003, XUAR courts have accepted a yearly average of roughly 150 cases 
involving endangering state security. ``Work Regarding Courts 
Nationwide Assisting Xinjiang Courts is Launched'' [Quanguo fayuan 
duikou zhiyuan xinjiang fayuan gongzuo qidong], Xinhua (Online), 14 
August 07. Nationwide, the number of arrests between 2003 and 2006 for 
endangering state security numbered 336, 426, 296, and 604 
respectively, and the number of such cases that authorities began to 
prosecute in 2005 and 2006 were 185 and 258 respectively, indicating 
that cases from the XUAR constituted a significant total percentage 
both of arrests and prosecutions for endangering state security. The 
Dui Hua Foundation (Online), ``New Statistics Point to Dramatic 
Increase in Chinese Political Arrests in 2006,'' 27 November 07; The 
Dui Hua Foundation (Online), `` `Endangering State Security' Arrests 
Rise More than 25% in 2004,'' Dialogue Newsletter, Winter 2006.
    \15\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
is Launched,'' Xinhua.
    \16\ Yan Wenlu, ``Xinjiang Higher People's Court To Sternly Crack 
Down on Crimes of the `Three Forces' in Accordance With the Law,'' 
China News Agency, 15 August 08 (Open Source Center, 15 August 08).
    \17\ Except where otherwise noted, information in this boxed 
subsection is drawn from ``Authorities Increase Repression in Xinjiang 
in Lead-up To and During Olympics,'' Congressional-Executive Commission 
on China.
    \18\ Information in this bulleted item, other than information on 
Ramadan, is drawn from ``Authorities Increase Repression in Xinjiang in 
Lead-up To and During Olympics,'' Congressional-Executive Commission on 
China. For information on controls over Ramadan, see, e.g., Shayar 
County Government (Online), ``Town of Yengi Mehelle in Shayar County 
Xinjiang Adopts Nine Measures To Strengthen Management During Ramadan'' 
[Shayaxian yingmaili zhen caiqu jiu xiang cuoshijiaqiang ``zhaiyue'' 
qijian guanli], 28 August 08; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security'' [Zhaosuxian wu cuoshi 
tiqian zuohao zhaiyue guanli bao ao yun wending], Fazhi Xinjiang 
(Online), 23 August 08; ``Toqsu County Deploys Work to Safeguard 
Stability During Ramadan'' [Xinhexian bushu zhaiyue qijian weiwen 
gongzuo], Xinjiang Peace Net (Online), 2 September 08. See also Section 
II--Freedom of Religion--China's Religious Communities--Islam.
    \19\ ``Uyghur Radio Worker Sacked, Detained,'' Radio Free Asia 
(Online), 8 September 08; ``Supplementary Information on Prisoner 
Mehbube Ablesh'' [Tutqun mehbube ablesh heqqide toluqlima melumatlar], 
Radio Free Asia (Online), 8 September 08; ``Uyghur Staff Member in 
Xinjiang Criticizes Government, Is Arrested'' [Xinjiang weizu yuangong 
piping zhengfu bei jubu], Radio Free Asia (Online), 9 September 08.
    \20\ While ``Sweep Away Pornography and Strike Down Illegal 
Publications'' campaigns targeting a range of materials exist 
throughout China, authorities in the XUAR target religious and 
political materials also as part of broader controls in the region over 
Islamic practice and other expressions of ethnic identity among the 
Uyghur population. ``Xinjiang Government Strengthens Campaign Against 
Political and Religious Publications,'' CECC China Human Rights and 
Rule of Law Update, February 2008, 4.
    \21\ In May 2006, for example, XUAR authorities launched a month-
long campaign aimed at rooting out ``illegal'' political and religious 
publications in which they reported finding `` `the existence of books 
with seriously harmful religious inclinations,'' and Uyghur-language 
religious materials with ``unhealthy content.'' ``Xinjiang Government 
Seizes, Confiscates Political and Religious Publications,'' CECC China 
Human Rights and Rule of Law Update, July 2006, 7-8. In February 2006, 
authorities confiscated ``illegal'' religious materials during a 
surprise inspection of the ethnic minority language publishing market, 
as part of a campaign that included focus on materials of an 
``illegal'' political nature, those that propagate ethnic separatism, 
or those of a religious nature. ``Xinjiang Cracks Down on `Illegal' 
Religious Publications,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 9.
    \22\ ``Atush Launches Clean-up Operation in Publishing Market'' 
[Atushi shi kaizhan chubanwu shichang zhuanxiang zhili xingdong], 
Qizilsu Kyrgyz Autonomous Prefecture Peace Net (Online), 11 July 08; 
Jume, ``Chinese Government Starts Urgent Search Activities on Streets 
of Atush'' [Xitay hokumiti atush shehiridiki dukan-restilerde jiddiy 
axturush herikiti bashlidi], Radio Free Asia (Online), 17 July 08.
    \23\ Gulchehre, ``Chinese Authorities Close Some Uyghur Discussion 
Web Sites During Olympics'' [Xitay dairiliri olimpik mezgilide bir 
qisim uyghur munazire tor betlirini taqidi], Radio Free Asia (Online), 
14 August 08. In a review of Uyghur Web sites carried out on August 18 
and 19, 2008, Commission staff found that the bulletin board services 
(BBS) on the Web sites www.diyarim.com, www.orkhun.com, and 
www.alkuyi.com blocked normal message-posting functions and carried 
messages calling for stability during the Olympics games or noting the 
closure of the site's BBS. In June, 2008, overseas media noted the 
closure of the Web site Uyghur Online due to perceived ties with 
overseas ``extremists.'' See ``Uyghur Web Site Shut Down,'' Radio Free 
Asia (Online), 12 June 08. See also ``Notice Concerning the Closure of 
Uyghur Online'' [Guanyu weiwuer zai xian bei guanbi de tongzhi], 
available at http://www.uighuronline.cn/ (last visited 19 May 2008). As 
of September 11, 2008, Commission staff observed that the site was in 
operation again.
    \24\ For information on the Islamic Association of China's 
publishing activities and state controls over the interpretation of 
religious texts, see ``SARA Director Calls for Continued Controls on 
Religion,'' CECC China Human Rights and Rule of Law Update, September 
2006, 8, and ``Islamic Congress Establishes Hajj Office, Issues New 
Rules,'' CECC China Human Rights and Rule of Law Update, June 2006, 12-
13.
    \25\ ``Teacher and 37 Students Detained for Sudying [sic] Koran in 
China: Rights Group'' Agence France-Presse, 15 August 05 (Open Source 
Center, 15 August 05); ``Three Detained in East Turkistan for `Illegal' 
Religious Text,'' Uyghur Human Rights Project (Online), 3 August 05; 
Human Rights Watch and Human Rights in China (Online), ``Devastating 
Blows: Religious Repression of Uighurs in Xinjiang,'' April 2005, 70 
(pagination follows ``text-only'' pdf download of this report).
    \26\ See, e.g., ``Xinjiang Government Promotes Mandarin Chinese Use 
Through Bilingual Education,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 17-18; Xinjiang Uyghur Autonomous Region Ethnic 
Affairs Commission (Online), ``This Fall Ethnic Minority Language-Track 
Middle Schools in Urumchi, Xinjiang, Try `Bilingual' Education'' [Jin 
qiu xinjiang wulumuqishi minyuxi chuzhong changshi ``shuangyu'' 
jiaoyu], reprinted on the State Ethnic Affairs Commission Web site, 9 
May 08.
    \27\ See, e.g., PRC Constitution, art. 4, 121, and Regional Ethnic 
Autonomy Law (REAL), enacted 31 May 84, amended 28 February 01, art. 
10, 21. Chinese law also promotes education in ethnic minority 
languages. See REAL, art. 37. 2005 Implementing Provisions for the REAL 
affirm the freedom to use and develop minority languages, but also 
place emphasis on the use of Mandarin by promoting ``bilingual'' 
education and bilingual teaching staff. State Council Provisions on 
Implementing the PRC Regional Ethnic Autonomy Law (REAL Implementing 
Provisions) [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu quyu 
zizhifa'' ruogan guiding], issued 19 May 05, art. 22.
    \28\ ``Xinjiang Bilingual Education Students Increase 50-fold in 6 
Years'' [Xinjiang shuangyu xuesheng liu nien zengzhang 50 bei], 
Xinjiang Economic News, via Tianshan Net (Online), 31 October 06.
    \29\ See, e.g., CECC, 2007 Annual Report, 107; CECC, 2006 Annual 
Report, 91; CECC, 2005 Annual Report, 22-23.
    \30\ The Xinjiang High People's Court rejected his appeal in 
February 2000, but changed the ``stealing'' state secrets charge to 
``unlawfully obtaining'' them. In 2001, the UN Working Group on 
Arbitrary Detention found his imprisonment arbitrary and in violation 
of his right to freedom of thought, expression, and opinion. See the 
CECC Political Prisoner Database for more information on Tohti Tunyaz's 
case and the other cases cited in this section.
    \31\ The precise charges levied against Abduhelil Zunun are 
unavailable, but Human Rights Watch reported that his sentence took 
place at a mass sentencing rally to punish terrorist and separatist 
activities. Human Rights Watch (Online), ``China Human Rights Update,'' 
15 February 02. See also the CECC Political Prisoner Database.
    \32\ See the CECC Political Prisoner Database for more details. 
Sentencing information on the case and Abdulla Jamal's current 
whereabouts are not known.
    \33\ See the CECC Political Prisoner Database for more details.
    \34\ Ibid.
    \35\ ``Uyghur Radio Worker Sacked, Detained,'' Radio Free Asia; 
``Supplementary Information on Prisoner Mehbube Ablesh,'' Radio Free 
Asia; ``Uyghur Staff Member in Xinjiang Criticizes Government, Is 
Arrested,'' Radio Free Asia. See the CECC Political Prisoner Database 
for more details.
    \36\ For a discussion of these groups, known as meshrep in Uyghur, 
see, e.g., Jay Dautcher, ``Public Health and Social Pathologies in 
Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. S. Frederick 
Starr (Armonk, New York: M.E. Sharpe, 2004), 285-6.
    \37\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update.
    \38\ The editor has surmised that the charge may have been based on 
e-mail correspondence the China Development Brief initiated with a 
Uyghur diaspora organization while conducting research. Nick Young, 
``Message from the Editor,'' China Development Brief (Online), 12 July 
07; Nick Young, ``Why China Cracked Down on My Nonprofit,'' Christian 
Science Monitor (Online), 4 December 07.
    \39\ Authorities also accused the publication's English-language 
editor of conducting ``unauthorized surveys'' and forced the 
publication's closing during a period of heightened scrutiny over local 
and foreign civil society organizations throughout China. Nick Young, 
``Message from the Editor,'' China Development Brief (Online), Nick 
Young, ``Why China Cracked Down on My Nonprofit.'' For more information 
on civil society groups in China, see Section III--Civil Society as 
well as CECC, 2007 Annual Report, 141-143.
    \40\ In the course of an interview with Chinese officials, the 
editor of the China Development Brief (CDB) critiqued repressive 
policies in the XUAR, comments which he believes might have shut down 
further negotiations with authorities on ways to salvage CDB. Nick 
Young, ``Why China Cracked Down on My Nonprofit.''
    \41\ While the government continues to impose hukou, or household 
registration requirements, that place restrictions on citizens' ability 
to formally change their place of residence and receive social services 
and other benefits in their new homes, limited hukou reforms and other 
policies have nonetheless given citizens more leeway to migrate 
internally within China than in previous decades. For more information 
on freedom of residence, see Section II--Freedom of Residence and CECC, 
2007 Annual Report, 111-113.
    \42\ See, e.g., REAL Implementing Provisions, art. 29. For 
additional information, see, e.g., Gardner Bovingdon, ``Autonomy in 
Xinjiang: Han Nationalist Imperatives and Uyghur Discontent,'' East-
West Center Washington 2004, Policy Studies 11, 24-26.
    \43\ Earlier government policies, including forced resettlement to 
the region, have already resulted in broad demographic shifts in the 
XUAR. According to an official government census, in 1953, Han Chinese 
constituted 6 percent of the XUAR's population of 4.87 million, while 
Uyghurs made up 75 percent. In contrast, the 2000 census listed the Han 
population at 40.57 percent and Uyghurs at 45.21 percent of a total 
population of 18.46 million. Scholar Stanley Toops has noted that Han 
migration since the 1950s is responsible for the ``bulk'' of the XUAR's 
high population growth in the past half century. Stanley Toops, 
``Demographics and Development in Xinjiang after 1949,'' East-West 
Center Washington Working Papers No. 1, May 04, 1. See also ``Xinjiang 
Focuses on Reducing Births in Minority Areas to Curb Population 
Growth,'' CECC China Human Rights and Rule of Law Update, April 2006, 
15-16; ``Xinjiang Reports High Rate of Population Increase,'' CECC 
China Human Rights and Rule of Law Update, March 2006, 16-17.
    \44\ State Administration for Ethnic Affairs (Online), ``Important 
Meaning'' [Zhongyao yiyi], 13 July 04.
    \45\ See Development Policy in Xinjiang in this section for more 
information.
    \46\ Scholar Gardner Bovingdon notes that ``Han immigration and 
state policies have dramatically increased the pressure on Uyghurs to 
assimilate linguistically and culturally, seemingly contradicting the 
explicit protections of the constitution and the laws on autonomy[.]'' 
Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives and 
Uyghur Discontent,'' 47.
    \47\ As noted above, Han migration has resulted in high population 
growth in the region. Stanley Toops, ``Demographics and Development in 
Xinjiang after 1949,'' 1.
    \48\ ``Xinjiang Focuses on Reducing Births in Minority Areas to 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update.
    \49\ ``Last Year, 65,000 Fewer People Were Born in Xinjiang'' 
[Qunian xinjiang shao chusheng 6.5 wan ren], Xinjiang Metropolitan 
News, reprinted in Tianshan Net, 28 February 08. Although the 
government has implemented policies throughout China to reward families 
who comply with various population planning dictates, it also continues 
to punish non-compliance. See Section II--Population Planning, for more 
information. The XUAR regulation on population planning allows urban 
Han Chinese couples to have one child, urban ethnic minority couples 
and rural Han Chinese couples to have two, and rural ethnic minority 
couples to have three. Xinjiang Uyghur Autonomous Region Regulation on 
Population and Family Planning [Xinjiang weiwu'er zizhiqu renkou yu 
jihua shengyu tiaoli], issued 28 November 02, amended 26 November 04 
and 25 May 06, art. 15. While this legislation indicates some 
flexibility to adapt national legislation to suit ``local conditions,'' 
as stipulated in the Regional Ethnic Autonomy Law, XUAR residents 
nonetheless lack the autonomy to choose not to implement any limits at 
all on childbearing. REAL, art. 4, 44. For information on the limits of 
the legal framework for autonomy, see, e.g., CECC, 2005 Annual Report, 
15-17. Scholar Gardner Bovingdon discusses the role of population 
planning requirements within the context of the regional ethnic 
autonomy system in Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' 26.
    \50\ See, e.g., Uyghur Human Rights Project (Online), ``Rural East 
Turkistan To Be `Focus' of China's Family Planning Policies,'' 15 
February 06; Human Rights in China: Improving or Deteriorating 
Conditions? Hearing of the Subcommittee on Africa, Global Human Rights, 
and International Operations, Committee on International Relations, 
U.S. House of Representatives, 19 April 06, Testimony of Rebiya Kadeer.
    \51\ For more details, see the CECC Political Prisoner Database as 
well as the sources cited below.
    \52\ ``Chinese Police Attempt to Take into Custody Son of Uighur 
Activist Rebiya Kadeer,'' CECC China Human Rights and Rule of Law 
Update, June 2005, 10; ``Rebiya Kadeer's Employees Released After 
Seven-Month Detention,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 4-5.
    \53\ ``Xinjiang Police Form Special Unit To Investigate Exiled 
Activist Rebiya Kadeer,'' CECC China Human Rights and Rule of Law 
Update, October 2005, 7-8.
    \54\ ``Xinjiang Authorities Question Rebiya Kadeer's Son, Name Him 
a Criminal Suspect,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 5-6.
    \55\ ``Rebiya Kadeer's Sons Charged With State Security and 
Economic Crimes,'' CECC China Human Rights and Rule of Law Update, July 
2006, 3-4.
    \56\ ``Rebiya Kadeer's Sons Receive Prison Sentence, Fines, for 
Alleged Economic Crimes,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 15-16.
    \57\ Uyghur American Association (Online), ``Son of Rebiya Kadeer 
Sentenced to Nine Years in Prison on Charges of `Secessionism,' '' 17 
April 07.
    \58\ Uyghur American Association (Online), ``Rebiya Kadeer's 
Imprisoned Son in Urgent Need of Medical Treatment,'' 11 December 07.
    \59\ See, e.g., Calla Weimer, ``The Economy of Xinjiang,'' in 
Xinjiang: China's Muslim Borderland, 188 (noting improvements in 
transport and communications that have produced ``broad benefits'' in 
the region.); Bovingdon, ``Autonomy in Xinjiang: Han Nationalist 
Imperatives and Uyghur Discontent,'' 38.
    \60\ State Administration for Ethnic Affairs (Online), ``Important 
Meaning.''
    \61\ Stanley W. Toops, ``The Ecology of Xinjiang: A Focus on 
Water,'' in Xinjiang: China's Muslim Borderland, 270-271.
    \62\ Although the Chinese government does not aggregate economic 
data by ethnic group, scholars who have looked at other indicators have 
noted that the most prosperous regions in the XUAR are those with 
majority Han populations. Areas in the XUAR with overwhelmingly ethnic 
minority populations remain the region's poorest. Weimer, ``The Economy 
of Xinjiang,'' 177-180; David Bachman, ``Making Xinjiang Safe for the 
Han? '' in Governing China's Multiethnic Frontiers, ed. Morris Rossabi 
(Seattle: University of Washington Press, 2004), 165-168.
    \63\ Weimer, ``The Economy of Xinjiang,'' 179-180; Bachman, 
``Making Xinjiang Safe for the Han? '' 167-168; Ildiko Beller-Hann, 
``Temperamental Neighbors: Uighur-Han Relations in Xinjiang, Northwest 
China,'' in Gunther Schlee, ed., Imagined Differences: Hatred and the 
Construction of Identity (New York: Palgrave, 2002), 65.
    \64\ See Weimer, ``The Economy of Xinjiang,'' 163 (noting strong 
government control over both oil and gas reserves and over the general 
economy).
    \65\ Scholar Calla Weimer has noted that ``in an effort to ensure 
stability in a frontier area,'' the central government ``has more 
actively asserted its control over development in Xinjiang than in any 
other region.'' Weimer, ``The Economy of Xinjiang,'' 164. For 
statements connecting development projects to stability, see, e.g., 
``While Joining NPC Deputies From Xinjiang in Discussing and Examining 
the Government's Work Report, General Hu Jintao Stresses That It Is 
Necessary To Firmly Grasp the Opportunity To Carry out the Large-Scale 
Development of the Western Region and Continuously Create a New 
Situation in the Development of Various Undertakings in Xinjiang,'' 
Xinjiang Daily, 9 March 08 (Open Source Center, 15 March 08); ``State 
Council Made Major Strategic Plans To Further Promote Xinjiang's 
Economic, Social Development,'' Xinjiang Daily, 3 October 07 (Open 
Source Center, 3 October 07); Kashgar District Ethnic and Religious 
Affairs Commission (Online), ``Xinjiang Uyghur Autonomous Region Chair 
Ismail Tiliwaldi Attends Ceremony for Laying Foundation for Kashgar-
Hoten Highway'' [Xinjiang weiwuer zizhiqu zhuxi simayi tieliwaerdi 
chuxi kashi zhi hetian gaodengji gonglu dianji yishi], reprinted on the 
State Ethnic Affairs Commission Web site, 20 November 07.
    \66\ In 2007, the government announced that it had invested over 
231 million yuan from 2001-2006 in funds to support ethnic minority 
development, using the money for healthcare, education, cultural 
undertakings, and broadcast communications. It also announced plans to 
increase funds for 2007. ``State Invests 300 Million Yuan in 7 Years to 
Support Xinjiang Ethnic Minority Economic Development'' [Guojia 7 nian 
tou 3 yi yuan fuchi xinjiang shaoshu minzu jingji fazhan], Xinjiang 
Daily (Online), 17 September 07.
    \67\ For Chinese media reports on the programs, see, e.g., ``Money 
From Our Kids Has Come'' [Zan haizi jiqian laile], Tianshan Net 
(Online), 25 June 07; Qarghiliq County Government (Online), ``Leaving 
Home for the Wide World, Qarghiliq County's Second Batch of 313 Young 
Girls Go to Tianjian To Start Their Undertakings'' [Zouchu jiamen 
tiandi kuan yecheng xian di er pi 313 ming nu qingnian fu tianjin 
chuangye], 17 April 07. For statistics on the makeup of the labor force 
and number of people transferred from Kashgar district, see ``160 Rural 
Women from Kashgar Go to Tianjin To Apply Their Labor'' [Xinjiang kashi 
160 ming nongcun funu fu tianjin wugong], Urumqi Evening News, 
reprinted in Tianshan Net, 19 March 07.
    \68\ Uyghur Human Rights Project (Online), ``Deception, Pressure, 
and Threats: The Transfer of Young Uyghur Women to Eastern China,'' 8 
February 08; Trafficking in China, Briefing of the Congressional Human 
Rights Caucus, U.S. House of Representatives, 31 October 07, Testimony 
of Rebiya Kadeer, President of the Uyghur American Association; 
``Uyghur Girls Forced Into Labor Far From Home By Local Chinese 
Officials,'' Radio Free Asia (Online), 11 July 07.
    \69\ For information on forced labor (hashar, also sometimes 
translated as ``corvee labor'') in English, see Radio Free Asia's blog 
``RFA Unplugged.'' ``Forced, Unpaid Labor for Uyghurs in China's Almond 
Groves,'' RFA Unplugged (Online), 9 April 07. For Uyghur-language 
reporting on the topic, see Gulchehre, ``Forced Labor Started Once 
Again in Kashgar Countryside'' [Qeshqer yezilirida hashar yene 
bashlandi], Radio Free Asia (Online), 7 February 07; Gulchehre, 
``100,000 Farmers in Yeken [Yarkand] Caught Up in Wide-Scale Forced 
Labor'' [Yekende yuz ming dehqan keng kolemlik hashargha tutuldi], 
Radio Free Asia (Online), 11 March 07; Gulchehre, ``Wide-Scale Forced 
Labor Started Again in Kashgar Countryside'' [Qeshqer yezilirida keng 
kolemlik hashar yene bashlandi], Radio Free Asia (Online), 20 March 08. 
For Chinese government reporting on the topic, see Kashgar District 
Government (Online), ``Yeken [Yarkand] County Starts Springtime Wave to 
Cultivate Desert Land'' [Shachexian xianqi chunji gebi kaihuang zaotian 
rechao], 9 March 07; Kashgar District Government (Online), ``100,000 
Rural Laborers Build Pistachio Base in Yeken [Yarkand] County'' 
[Shachexian shi wan nongmingong jianshe kaixinguo jidi], 20 March 07.
    \70\ ``Work-Study Programs Using Child Labor Continue in 
Xinjiang,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5. See also ``Xinjiang Government Continues Controversial `Work-
Study' Program,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 11.
    \71\ ``Civil Servant Recruitment in Xinjiang Favors Han Chinese,'' 
CECC China Human Rights and Rule of Law Update, August 2006, 6; 
``Xinjiang Government Says Ethnic Han Chinese Will Get 500 of 700 New 
Civil Service Appointments,'' Congressional-Executive Commission on 
China (Online), 7 April 05; CECC Staff Interviews. In addition, new 
requirements imposed through the government's ``bilingual'' education 
policies disadvantage the job prospects of ethnic minority teachers. 
For more information, see Addendum: ``Bilingual'' Education in Xinjiang 
at the end of this section.
    \72\ According to one report, personnel shortcomings have meant 
that ``there is no way to guarantee the use of ethnic minority 
languages to carry out litigation.'' ``Meticulously Picking Talent: 
Problem of Faultline in Xinjiang Courts Makes First Steps at 
Improvement'' [Jingxin linxuan rencai xinjiang faguan duanceng wenti 
chubu huanjie], Tianshan Net (Online), 7 February 06. See also ``Lack 
of Ethnic Minority Judges in Xinjiang Basic-Level Courts Especially 
Prominent'' [Xinjiang jiceng fayuan shaoshu minzu faguan buzu youwei 
tuchu], Xinhua (Online), 22 November 07; ``Courts throughout Country to 
Join Forces to Help Xinjiang'' [Quanguo fayuan jiang heli yuan jiang], 
Tianshan Net (Online), 20 August 07. The shortage of legal personnel 
and interpreters who speak ethnic minority languages also impacts legal 
proceedings outside the XUAR, especially since the Supreme People's 
Court returned to the process of reviewing all death sentences levied 
within China. See ``China Exclusive: More Ethnic Judges, Translators 
Needed To Cope With Stricter Death Penalty,'' Xinhua, 13 March 07 (Open 
Source Center, 13 March 07). For legal bases to have judicial 
proceedings conducted in one's native language, see, e.g., PRC 
Constitution, art. 134; REAL, art. 47; Criminal Procedure Law, enacted 
1 January 79, amended 17 March 96, art. 9; Administrative Procedure 
Law, enacted 4 April 89, art. 8; Civil Procedure Law, enacted 9 April 
91, amended 28 October 07, art. 11; Xinjiang Uyghur Autonomous Region 
Regulation on Spoken and Written Language Work [Xinjiang weiwu'er 
zizhiqu yuyan wenzi gongzuo tiaoli], adopted 25 September 93, amended 
20 September 02, art. 12.
    \73\ Information within is based on CECC Staff Interviews except 
where otherwise noted.
    \74\ For background information, including reports from China and 
neighboring countries along with reports from overseas observers, see, 
e.g., Li Zhongfa, ``Hu Jintao Holds Talks With Kyrgyz President 
Bakiyev,'' Xinhua, 9 June 06 (Open Source Center, 11 June 06); 
``Cooperation With China Strengthened: Uzbek President,'' Xinhua, 19 
June 06 (Open Source Center, 10 June 06); ``China's `Uyghur Problem' 
and the Shanghai Cooperation Organization,'' Hearing on China's Role in 
the World: Is China a Responsible Stakeholder?, U.S.-China Economic and 
Security Review Commission, 3-4 August 06, Testimony of Dru Gladney, 
Professor of Asian Studies, University of Hawaii at Manoa; ``China 
Tightly Controls the Cradles of the `Xinjiang Independence' Forces,'' 
Ta Kung Pao, 25 August 06 (Open Source Center, 26 August 06); ``China 
To Urge Tougher Counter-Terrorism Measures at SCO 22 Sep Session,'' 
Agence France-Presse, 21 September 06 (Open Source Center, 21 September 
06); Tao Shelan, ``Xinjiang Uyghur Autonomous Region Chairman Ismail 
Tiliwaldi: Clamping Down On Terrorism Is Common Aspiration of Peace-
Loving People,'' China News Agency, 16 May 07 (Open Source Center, 19 
May 07); ``SCO Nations End Consultations on Anti-Terrorism Military 
Exercise,'' Xinhua, 19 May 07 (Open Source Center, 19 May 07); Yu Sui, 
``Hu's Visit Set To Boost Regional Cooperation,'' China Daily, 14 
August 07 (Open Source Center, 14 August 07); Erica Marat, ``Chinese 
Migrants Face Discrimination in Kyrgyzstan,'' Jamestown Foundation 
(Online), 28 February 08; Robert Sutter, ``Durability in China's 
Strategy Toward Central Asia--Reasons for Optimism,'' China and Eurasia 
Forum Quarterly, Volume 6, No. 1, 2008, 3-10. See also the Shanghai 
Cooperation Organization Web site at www.setsco.org.
    \75\ CECC Staff Interviews. Barriers to local asylum proceedings 
have resulted in problems including statelessness. For more 
information, see, e.g., Refugees International (Online), ``Kazakhstan: 
Neglecting Refugees, Engendering Statelessness,'' 21 December 07; 
Refugees International (Online), ``Kyrgyz Republic: Powerful Neighbors 
Imperil Protection and Create Statelessness,'' 20 December 07; Refugees 
International (Online), ``Refugee Voices: Uighurs in Kyrgyz Republic,'' 
9 January 08.
    \76\ CECC Staff Interviews; Amnesty International (Online), 
``Central Asia Summary of Human Rights Concerns January 2006-March 
2007,'' 2007; Human Rights Watch and Human Rights in China (Online), 
``Devastating Blows: Religious Repression of Uighurs in Xinjiang,'' 24; 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State 
(Online), Country Reports on Human Rights Practices--2005, China 
(includes Tibet, Hong Kong, and Macau), 8 March 06.
    \77\ Convention Relating to the Status of Refugees, adopted 28 July 
51 by the United Nations Conference of Plenipotentiaries on the Status 
of Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33.
    \78\ Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, adopted by General Assembly 
resolution 39/46 of 10 December 84, art. 3(1).
    \79\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 12(2).
    \80\ See, e.g., ``Xinjiang Government Promotes Mandarin Chinese Use 
Through Bilingual Education,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 17-18; Xinjiang Uyghur Autonomous Region Ethnic 
Affairs Commission, ``This Fall Ethnic Minority Language-Track Middle 
Schools in Urumchi, Xinjiang, Try `Bilingual' Education'' [Jin qiu 
xinjiang wulumuqishi minyuxi chuzhong changshi ``shuangyu'' jiaoyu], 
reprinted on the State Ethnic Affairs Commission Web site, 9 May 08.
    \81\ See, e.g., ``Xinjiang's First Round of Love My China Ethnic 
Minority Youth Bilingual Oral Speech Contest Opens'' [Xinjiang shoujie 
ai wo zhonghua shaoshu minzu shao'er shuangyu kouyu dasai qimu], 
Tianshan Net (Online), 15 September 06; Kashgar District Government 
(Online), ``Love My China Bilingual Speech Contest Enters Semi-Finals'' 
[Ai wo zhonghua shuangyu dasai jinru fusai], 31 October 06.
    \82\ ``Wang Lequan Stresses: Firmly Implement the Principle of 
Politicians Managing Education'' [Wang Lequan qiangdiao: jianding 
luoshi zhengzhijia ban jiaoyu yuanze], Xinhua Economic News, reprinted 
in Xinhua, 26 April 05.
    \83\ Cited in Arienne M. Dwyer, ``The Xinjiang Conflict: Uyghur 
Identity, Language Policy, and Political Discourse,'' East-West Center 
Washington 2005, Policy Studies 15, 37.
    \84\ For these and other protections, see, e.g., PRC Constitution, 
arts. 4, 121 and Regional Ethnic Autonomy Law (REAL), enacted 31 May 
84, amended 28 February 01, arts. 10, 21.
    \85\ REAL, art. 37. 2005 Implementing Provisions for the REAL 
affirm the freedom to use and develop minority languages, but also 
place emphasis on the use of Mandarin by promoting ``bilingual'' 
education and bilingual teaching staff. State Council Provisions on 
Implementing the PRC Regional Ethnic Autonomy Law (REAL Implementing 
Provisions) [Guowuyuan shishi ``Zhonghua renmin gongheguo minzu quyu 
zizhifa'' ruogan guiding], issued 19 May 05, art. 22.
    \86\ `` `Bilingual' Policy Reduces Use of Ethnic Minority Languages 
in Xinjiang Preschools,'' CECC China Human Rights and Rule of Law 
Update, March/April 2008, 3; ``Xinjiang Official Describes Plan to 
Expand Use of Mandarin in Minority Schools,'' CECC China Human Rights 
and Rule of Law Update, March 2006, 13.
    \87\ ``Decision Concerning the Vigorous Promotion of `Bilingual' 
Education Work'' [Guanyu dali tuijin ``shuangyu'' jiaoxue gongzuo de 
jueding], cited in e.g., `` `Eight Questions' About Xinjiang 
`Bilingual' Education Work'' [Xinjiang ``shuangyu'' jiaoxue gongzuo 
``ba wen''], Tianshan Net (Online), 7 March 08.
    \88\ ``Results of Xinjiang's Promotion of `Bilingual Education' 
Remarkable'' [Xinjiang tuijin ``shuangyu jiaoxue'' chengxiao xianzhu], 
Xinjiang Daily, reprinted in Tianshan Net (Online), 7 December 05.
    \89\ ``City in Xinjiang Mandates Exclusive Use of Mandarin Chinese 
in Schools,'' CECC China Human Rights and Rule of Law Update, September 
2006, 9-10.
    \90\ ``Xinjiang Bilingual Education Students Increase 50-fold in 6 
Years'' [Xinjiang shuangyu xuesheng liu nian zengzhang 50 bei], 
Xinjiang Economic News, reprinted in Tianshan Net (Online), 31 October 
06.
    \91\ Xinjiang Education Department (Online), ``Notice Concerning 
Soliciting Opinions on `Opinion Concerning the Vigorous and Reliable 
Promotion of Ethnic Minority Preschool and Elementary and Secondary 
``Bilingual'' Education Work (Draft for Soliciting Opinions)' '' 
[Guanyu zhengqiu ``guanyu jiji, wentuode tuijin shaoshu minzu xueqian 
he zhongxiaoxue `shuangyu' jiaoxue gongzuo de yijian (zhengqiu 
yijian)'' yijian de tongzhi], 5 May 08.
    \92\ ``Results of Xinjiang's Promotion of `Bilingual Education' 
Remarkable,'' Xinjiang Daily.
    \93\ Xinjiang Education Department, ``Notice Concerning Soliciting 
Opinions on `Opinion Concerning the Vigorous and Reliable Promotion of 
Ethnic Minority Preschool and Elementary and Secondary ``Bilingual'' 
Education Work (Draft for Soliciting Opinions).' ''
    \94\ Rupert Wingfield-Hayes, ``Language Blow for China's Muslims,'' 
BBC (Online), 1 June 2002.
    \95\ ``Xinjiang Vocational Schools To Implement Two-Year Education 
System, Basic Courses Taught in Mandarin'' [Xinjiang zhiye yuanxiao 
jiang shixing liang nian zhi jiaoyu jichuke shiyong hanyu jiangke], 
Urumqi Evening News, reprinted in Tianshan Net (Online), 27 July 2005.
    \96\ In contrast, an undated description of the college, available 
on the XUAR Personnel Department Web site, describes the institution as 
a combined ethnic minority-Han school that teaches in Mandarin, Uyghur, 
and Kazakh. `` `Bilingual' Policy Reduces Use of Ethnic Minority 
Languages in Xinjiang Preschools,'' CECC China Human Rights and Rule of 
Law Update.
    \97\ Opinion Concerning the Strengthening of Ethnic Minority 
Preschool ``Bilingual'' Education [Guanyu jiaqiang shaoshu minzu 
xueqian ``shuangyu'' jiaoyu de yijian], issued 2005, as cited in `` 
`Eight Questions' About Xinjiang `Bilingual' Education Work,'' Tianshan 
Net. Commission staff was unable to locate the original text of this 
opinion. See also Xinjiang Education Department, ``Notice Concerning 
Soliciting Opinions on `Opinion Concerning the Vigorous and Reliable 
Promotion of Ethnic Minority Preschool and Elementary and Secondary 
``Bilingual'' Education Work (Draft for Soliciting Opinions).' ''
    \98\ ``Xinjiang Makes 5-Year 430 Million Yuan Investment To Develop 
Rural Preschool `Bilingual' Education'' [Xinjiang 5 nian touru 4.3 yi 
fazhan nongcun xueqian ``shuangyu'' jiaoyu], Xinjiang Economic News, 
reprinted in Tianshan Net (Online), 10 October 06; `` `Bilingual' 
Policy Reduces Use of Ethnic Minority Languages in Xinjiang 
Preschools,'' CECC China Human Rights and Rule of Law Update. These 
plans may have stemmed from direction in the 2005 opinion on preschool 
``bilingual'' education. See Opinion Concerning the Strengthening of 
Ethnic Minority Preschool ``Bilingual'' Education [Guanyu jiaqiang 
shaoshu minzu xueqian ``shuangyu'' jiaoyu de yijian], issued 2005, as 
cited in `` `Eight Questions' About Xinjiang `Bilingual' Education 
Work,'' Tianshan Net. Commission staff was unable to locate the 
original text of this opinion.
    \99\ ``[XUAR] Department of Finance Allocates 70.39 Million Yuan To 
Support Preschool `Bilingual' Education'' [Caizhengting xiabo 7039 wan 
yuan zhichi xueqian ``shuangyu'' jiaoyu], Xinjiang Daily (Online), 12 
November 07; `` `Bilingual' Policy Reduces Use of Ethnic Minority 
Languages in Xinjiang Preschools,'' CECC China Human Rights and Rule of 
Law Update. The subsidies include 1.5 yuan each day per child for daily 
expenses, 20 yuan yearly per child for teaching materials, and a 400 
yuan monthly subsidy per teacher. The government had announced 
subsidies for ``bilingual'' preschool education at least as early as 
2005. ``Xinjiang Official Describes Plan to Expand Use of Mandarin in 
Minority Schools,'' CECC China Human Rights and Rule of Law Update.
    \100\ ``105 Teachers College Students Go to Kashgar, Xinjiang To 
Support Educational Undertakings'' [105 ming shifansheng fu xinjiang 
kashi zhijiao], Urumqi Evening News, reprinted in Tianshan Net 
(Online), 28 February 08; `` `Bilingual' Policy Reduces Use of Ethnic 
Minority Languages in Xinjiang Preschools,'' CECC China Human Rights 
and Rule of Law Update.
    \101\ ``State To Invest 3.75 Billion Yuan To Support Xinjiang 
`Bilingual' Preschool Education'' [Guojia jiang touru 37.5 yi yuan 
zhichi xinjiang xueqian ``shuangyu'' jiaoyu], Xinjiang Daily, reprinted 
in Tianshan Net (Online), 12 September 08.
    \102\ In June 2007, official media reported that 42.8 percent of 
rural preschool-age children in Yengisheher county, Kashgar district, 
were enrolled in ``bilingual'' preschool programs. ``40 Percent of 
Rural Youngsters of Appropriate Age Attend `Bilingual' Preschools, 
`Bilingual' Preschool Education Welcomed by the Farmers of 
Yengisheher'' [Si cheng nongcun shiling ertong jiudu ``shuangyu'' 
you'eryuan xueqian ``shuangyu'' jiaoyu shou shule nongmin huanying], 
Xinjiang Daily (Online), 22 June 07. In December 2007, official media 
reported that in 2008, all urban ethnic minority children and 90 
percent of rural preschool-age ethnic minority children in Bayin'gholin 
Mongol Autonomous Prefecture--which has a predominantly Uyghur ethnic 
minority population--would receive ``bilingual'' education. ``Ethnic 
Minority Youngsters of the Appropriate Age Receive `Bilingual' 
Education'' [Shaoshu minzu shiling ertong jieshou ``shuangyu'' 
jiaoxue], Tianshan Net (Online), 26 December 07. The article also noted 
that all urban elementary school students in first grade and higher 
would receive ``bilingual'' education, as would over 80 percent of 
their rural counterparts. For statistics on the ethnic minority 
population within the prefecture, see ``Introduction to the General 
Situation in the Bayin'gholin Mongol Autonomous Prefecture'' 
[Bayinguoleng menggu zizhizhou gaikuang jianjie], Xinjiang Investment 
Net (Online), 24 December 07.
    \103\ Xinjiang Education Department, ``Notice Concerning Soliciting 
Opinions on `Opinion Concerning the Vigorous and Reliable Promotion of 
Ethnic Minority Preschool and Elementary and Secondary ``Bilingual'' 
Education Work (Draft for Soliciting Opinions).' ''
    \104\ See, e.g., Uyghur Human Rights Project (Online), ``Uyghur 
Language Under Attack: The Myth of `Bilingual' Education in the 
People's Republic of China,'' 24 July 07, 8-9; ``Atush Starts Mandarin 
Chinese-Strengthening Training Class in Shenyang'' [Atushi kaiban fu 
shenyang jiaoshi hanyu qianghua peixunban], Qizilsu News, reprinted on 
the Qizilsu Kyrgyz Autonomous Prefecture Government Web site, 16 August 
06; ``China Imposes Chinese Language on Uyghur Schools,'' Radio Free 
Asia (Online), 16 March 04. See also Xinjiang Education Department, 
``Notice Concerning Soliciting Opinions on `Opinion Concerning the 
Vigorous and Reliable Promotion of Ethnic Minority Preschool and 
Elementary and Secondary ``Bilingual'' Education Work (Draft for 
Soliciting Opinions).' '' The opinion calls for giving ``appropriate 
placements'' to older teachers with poor Mandarin skills.
    \105\ ``Autonomous Region Chair Nur Bekri Responds to Separatists' 
Attack on Bilingual Education'' [Zizhiqu zhuxi nu'er baikeli huiying 
fenlie fenzi dui shuangyu jiaoyu gongji], Xinjiang Metropolitan News, 
reprinted in Xinhua (Online), 5 March 08; `` `Bilingual' Policy Reduces 
Use of Ethnic Minority Languages in Xinjiang Preschools,'' CECC China 
Human Rights and Rule of Law Update.
    \106\ Uyghur Human Rights Project (Online), ``Deception, Pressure, 
and Threats: The Transfer of Young Uyghur Women to Eastern China,'' 8 
February 08, 4-6.
    \107\ ``Uyghur Girls Forced Into Labor Far From Home By Local 
Chinese Officials,'' Radio Free Asia (Online), 11 July 07.
    \108\ Radio Free Asia (RFA) reported that the government announced 
in 2004 that all forced labor (hashar, sometimes also translated as 
``corvee labor'') would be abolished by the end of 2005. While one 
government official whom RFA broadcasters contacted said that workers 
were paid and would become owners of the base, another official 
contacted by RFA said that the laborers would not be paid. The spouse 
of a third official, who answered a telephone call from RFA, surmised 
that workers would not be paid. A farmer contacted by RFA reported that 
20 laborers per small village were required to work at the site without 
pay, and were required to pay a fine if they refused. For information 
in English, see RFA's blog ``RFA Unplugged.'' ``Forced, Unpaid Labor 
for Uyghurs in China's Almond Groves,'' RFA Unplugged (Online), 9 April 
07. For Uyghur-language reporting on the topic, see, e.g., Gulchehre, 
``Forced Labor Started Once Again in Kashgar Villages'' [Qeshqer 
yezilirida hashar yene bashlandi], Radio Free Asia (Online), 7 February 
07; Gulchehre, ``100,000 Farmers in Yeken [County] Involved in Wide-
Scale Forced Labor'' [Yekende yuz ming dehqan keng kolemlik hashargha 
tutuldi], Radio Free Asia (Online), 11 March 07.
    \109\ Kashgar District Government (Online), ``Yeken [Yarkand] 
County Starts Springtime Wave To Cultivate Desert Land'' [Shachexian 
xianqi chunji gebi kaihuang zaotian rechao], 9 March 07; Kashgar 
District Government (Online), ``100,000 Rural Laborers Build Pistachio 
Base in Yeken [Yarkand] County'' [Shachexian 10 wan nongmingong jianshe 
kaixinguo jidi], 20 March 07.
    \110\ Gulchehre, ``Forced Labor Begins Again on Wide Scale in 
Kashgar Villages'' [Qeshqer yezilirida keng kolemlik hashar yene 
bashlandi], Radio Free Asia (Online), 20 March 08.
    \111\ ``Work-Study Programs Using Child Labor Continue in 
Xinjiang,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5; ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11.
    \112\ According to one report, personnel shortcomings have meant 
that ``there is no way to guarantee the use of ethnic minority 
languages to carry out litigation.'' ``Meticulously Picking Talent: 
Problem of Faultline in Xinjiang Courts Makes First Steps at 
Improvement'' [Jingxin linxuan rencai xinjiang faguan duanceng wenti 
chubu huanjie], Tianshan Net (Online), 7 February 06. See also ``Lack 
of Ethnic Minority Judges in Xinjiang Basic-Level Courts Especially 
Prominent'' [Xinjiang jiceng fayuan shaoshu minzu faguan buzu youwei 
tuchu], Xinhua (Online), 22 November 07; ``Courts Throughout Country To 
Join Forces To Help Xinjiang'' [Quanguo fayuan jiang heli yuan jiang], 
Tianshan Net (Online), 20 August 07. The shortage of legal personnel 
and interpreters who speak ethnic minority languages also impacts legal 
proceedings outside the XUAR, especially since the Supreme People's 
Court returned to the process of reviewing all death sentences levied 
within China. See ``China Exclusive: More Ethnic Judges, Translators 
Needed To Cope With Stricter Death Penalty,'' Xinhua, 13 March 07 (Open 
Source Center, 13 March 07). For legal bases to have judicial 
proceedings conducted in one's native language, see, e.g., PRC 
Constitution, art. 134; Regional Ethnic Autonomy Law, enacted 31 May 
84, amended 28 February 01, art. 47; Criminal Procedure Law, enacted 1 
January 79, amended 17 March 96, art. 9; Administrative Procedure Law, 
enacted 4 April 89, art. 8; Civil Procedure Law, enacted 9 April 91, 
amended 28 October 07, art. 11; Xinjiang Uyghur Autonomous Region 
Regulation on Spoken and Written Language Work [Xinjiang weiwu'er 
zizhiqu yuyan wenzi gongzuo tiaoli], issued 25 September 93, amended 20 
September 02, art. 12.
    \113\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
Is Launched'' [Quanguo fayuan duikou zhiyuan xinjiang fayuan gongzuo 
qidong], Xinhua (Online), 14 August 07; ``Xinjiang Actively Constructs 
Troops of Ethnic Minority Lawyers'' [Xinjiang jiji jianshe shaoshu 
minzu lushi duiwu], Xinhua, reprinted in Tianshan Net (Online), 15 
October 07. There were 316 ethnic minority lawyers, or 15 percent of 
the total population, in 2006. ``Xinjiang Bilingual Lawyers and Courts 
Develop with Grace'' [Xinjiang shuangyu lushi fating zhan fengcai], 
Tianshan Net (Online), 19 May 2006. For information on conditions in an 
individual prefecture, see a description of the Ili Kazakh Autonomous 
Prefecture, which has 23 ethnic minority lawyers out of a total of 163, 
in ``Xinjiang Uyghur Autonomous Region Sorely Lacks Ethnic Minority 
Lawyers'' [Xinjiang weiwuer zizhiqu shaoshu minzu lushi qique], Uyghur 
Online, 20 April 07.
    \114\ ``First Bilingual Law Firm in China Hangs Out Its Shingle'' 
[Guonei shoujia shuangyu lushisuo jiepai], Xinjiang Legal Daily 
(Online), 30 March 06.
    \115\ For an example of efforts to promote staffing in underserved 
areas, see, e.g., ``Meticulously Picking Talent: Problem of Faultline 
in Xinjiang Courts Makes First Steps at Improvement,'' Tianshan Net.
    \116\ ``Xinjiang Uyghur Autonomous Region Sorely Lacks Ethnic 
Minority Lawyers,'' Uyghur Online.
    \117\ ``Our Region Acts to Train Minority-Han High-Level Bilingual 
Talent'' [Woqu chutai jucuo peiyang minhan jiantong gao cengci shuangyu 
rencai], Xinjiang Daily (Online), 27 September 07.
    \118\ ``Work Regarding Courts Nationwide Assisting Xinjiang Courts 
Is Launched,'' Xinhua.
    \119\ Ibid.
    \120\ Supreme People's Court, ``National Forum Opens To Discuss 
Courts' Work To Assist Their Counterparts in Xinjiang--Jiang Xingchang 
Calls For Forming a Long-Term Mechanism To Assist Xinjiang and Raise 
the Judicial Capability of Its Courts,'' 14 August 07 (Open Source 
Center, 20 August 07).
    \121\ Yan Wenlu, ``Xinjiang Higher People's Court To Sternly Crack 
Down on Crimes of the `Three Forces' in Accordance With the Law,'' 
China News Agency, 15 August 08 (Open Source Center, 15 August 08).
    \122\ The government describes religious extremism as one of the 
``three forces'' against which it has launched a ``strike-hard'' 
campaign. The other forces are separatism and terrorism. Local 
government reported maintaining surveillance of religious practice 
through a ``two-point system,'' which has been in force in recent years 
and is described by local government sources as a mechanism for 
maintaining regular contact with mosques and carrying out ``chats'' 
with religious figures. For a basic description of the two-point 
system, see Aqsu Party Building (Online), ``32nd Installment'' [Di 32 
qi], 18 January 05; Onsu Party Building, ``United Front Embraces the 2 
Systems, Perfects the 3 Kinds of Mechanisms'' [Tongzhanbu weirao liang 
xiang zhidu gaishan sanzhong jizhi], 5 April 06. For reports from the 
past year on the two-point system and other measures to control 
religious practice in the region, including via increased controls over 
mosques and religious leaders, see, e.g., Kashgar District Government 
(Online), ``Yengisar County Speech on Its Current Stance'' 
[Yingjishaxian biaotai fayan], 5 January 08; Qumul District Government 
(Online), ``Gulshat Abduhadir Stresses at District Education Work 
Meeting, Enlarge Investments for Optimal Environment'' [Gulixiati 
Abudouhade'er zai diqu jiaoyu gongzuo huiyishang qiangdiao jiada touru 
youhua huanjing], 9 March 08; Yeken [Yarkand] County Government 
(Online), ``Yeken County Almaty Village Implements `8 Acts' To 
Establish Safe and Sound Village'' [Shachexian alamaitixiang shishi 
``baxiang jucuo'' chuangjian pingan xiangzhen], 16 October 07; Kashgar 
District Government (Online), ``Let Society Be Stable and Harmonious, 
For the People To Be Without Fear--Work Report on Poskam County 
Striving to Establish a Region-Level Quiet and Stable County'' [Rang 
shehui wending hexie wei baixing anjuleye--zepuxian zheng chuang 
zizhiquji ping'an xian gongzuo jishi], 3 December 07; ``Crackdown on 
Xinjiang Mosques, Religion,'' Radio Free Asia (Online), 14 August 08; 
``Mongghulkure County `Protect Olympics, Protect Stability' Supervision 
Group Reports Work to Ili Prefecture'' [Zhaosuxian shang yili zhou 
``bao ao yun cu wending'' dudao xiaozu huibao gongzuo], Ili Peace Net 
(Online), 16 July 08; Monghulkure County Promptly Arranges 
Implementation of Spirit of Ili 7.13 Stability Meeting [Zhaosuxian 
xunsu anpai luoshi yilizhou ``7.13'' wending huiyi jingshen], Ili Peace 
Net (Online), 16 July 08; Kashgar District Government, ``Usher in the 
Olympics and Ensure Stability; Jiashi People Are of One Heart and 
Mind,'' 8 August 08 (Open Source Center, 8 August 08).
    \123\ ``Nur Bekri's Speech at Autonomous Region Cadre Plenary 
Session'' [Nu'er Baikeli zai zizhiqu ganbu dahui shang de jianghua], 
Tianshan Net (Online), 11 September 08.
    \124\ ``Uyghur Mosque Demolished,'' Radio Free Asia (Online), 23 
June 08; Jume, ``Mosque in Kelpin County Destroyed by the Government'' 
[Kelpin nahiyisi tewesidiki bir meschit hokumet teripidin 
cheqiwetildi], Radio Free Asia (Online), 23 June 08. In response to a 
question about the demolition, China's Ministry of Foreign Affairs 
spokesperson described the mosque as part of two ``unlawfully built 
structures'' used ``without authorization'' for religious activity and 
said that local residents tore down the structures on their own after 
learning their construction violated Chinese law. Lin Liping and Rong 
Yan, ``Foreign Ministry Spokesman Says the Report Alleging the 
`Demolition of a Mosque in Xinjiang' Grossly Untrue,'' Xinhua, 8 July 
08 (Open Source Center, 8 July 08). See also ``AFP Reporters Barred 
From China Village Where Mosque Was Razed,'' Agence France-Presse, 30 
July 08 (Open Source Center, 30 July 08).
    \125\ For examples of reported measures, see, e.g., ``Religious 
Repression in Xinjiang Continues During Ramadan,'' CECC China Human 
Rights and Rule of Law Update, January 2008, 3; Shayar County 
Government (Online), ``Town of Yengi Mehelle in Shayar County Xinjiang 
Adopts Nine Measures to Strengthen Management During Ramadan'' 
[Shayaxian yingmaili zhen caiqu jiu xiang cuoshijiaqiang ``zhaiyue'' 
qijian guanli], 28 August 08; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security'' [Zhaosuxian wu cuoshi 
tiqian zuohao zhaiyue guanli bao ao yun wending], Fazhi Xinjiang 
(Online), 23 August 08; ``Toqsu County Deploys Work to Safeguard 
Stability During Ramadan'' [Xinhexian bushu zhaiyue qijian weiwen 
gongzuo], Xinjiang Peace Net (Online), 2 September 08; Yopurgha County 
Government (Online), ``Our County Carries Out Plans for Work on 
Management of Religious Affairs During Ramadan'' [Wo qu dui zhaiyue 
qijian zongjiao shiwu guanli gongzuo jinxing anpai], 1 September 08; 
Kuytun City Government (Online), ``Kuytun City Convenes Meeting on Work 
to Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day'' [Kuitunshi zhaokai wei wen 
gongzuo huiyi dui can'aohui, zhaiyue he guoqingjie qijian anquan 
gongzuo jinxing anpai], 3 September 08; ``Ramadan Curbs on China's 
Muslims,'' Radio Free Asia (Online), 6 September 08.
    \126\ ``Xinjiang Uyghurs Committed to Ramadan Are Detained, Retired 
Han Official Criticizes Corruption'' [Xinjiang weizuren jianchi 
fengzhai beiju hanren tuixiu guan pi zhengfu tanfu], Radio Free Asia 
(Online), 16 September 08.
    \127\ See generally Shayar County Government, ``Town of Yengi 
Mehelle in Shayar County Xinjiang Adopts Nine Measures to Strengthen 
Management During Ramadan''; ``Five Measures from Mongghulkure County 
Ensure Ramadan Management and Olympics Security,'' Fazhi Xinjiang; 
``Toqsu County Deploys Work to Safeguard Stability During Ramadan,'' 
Xinjiang Peace Net; Yopurgha County Government, ``Our County Carries 
Out Plans for Work on Management of Religious Affairs During Ramadan''; 
Kuytun City Government, ``Kuytun City Convenes Meeting on Work to 
Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day''; ``Ramadan Curbs on China's 
Muslims,'' Radio Free Asia.
    \128\ Shayar County Government, ``Town of Yengi Mehelle in Shayar 
County Xinjiang Adopts Nine Measures to Strengthen Management During 
Ramadan''; ``Five Measures from Mongghulkure County Ensure Ramadan 
Management and Olympics Security,'' Fazhi Xinjiang; ``Ramadan Curbs on 
China's Muslims,'' Radio Free Asia; Weli, ``Chinese Government Now 
Forcing Women in Xoten to Expose Their Faces'' [Xitay hokumiti hazir 
xotende ayallarni yuzini echiwetishqa mejburlimaqta], Radio Free Asia 
(Online), 27 August 08.
    \129\ ``Authorities Block Uighur Protest in Xinjiang, Detain 
Protesters,'' CECC China Human Rights and Rule of Law Update, May 2008, 
3.
    \130\ Xinjiang Uyghur Autonomous Region Implementing Measures of 
the Law on the Protection of Minors [Xinjiang weiwuer zizhiqu shishi 
``Weichengnianren baohufa'' banfa], issued 25 September 93, art. 14. No 
other provincial or national regulation on minors or on religion 
contains this precise provision. Human Rights Watch and Human Rights in 
China (Online), ``Devastating Blows: Religious Repression of Uighurs in 
Xinjiang,'' April 2005, 58 (pagination follows ``text-only'' pdf 
download of this report).
    \131\ Uyghur Human Rights Project (Online), ``A Life or Death 
Struggle in East Turkestan; Uyghurs Face Unprecedented Persecution in 
post-Olympic Period,'' 4 September 08, 4.
    \132\ See, e.g., Shayar County Government, ``Town of Yengi Mehelle 
in Shayar County Xinjiang Adopts Nine Measures to Strengthen Management 
During Ramadan''; Yopurgha County Government, ``Our County Carries Out 
Plans for Work on Management of Religious Affairs During Ramadan''; 
Kuytun City Government, ``Kuytun City Convenes Meeting on Work to 
Safeguard Stability, Carries Out Plans on Safety Work During 
Paralympics, Ramadan, and National Day''; Kashgar District Government 
(Online), ``Maralbeshi Launches Activities for Developing and 
Cultivating National Spirit in Elementary and Secondary Schools Month'' 
[Bachu kaizhan zhongxiaoxue hongyang he peiyu minzu jingshen yue 
huodong], 26 September 08; ``Qorghas County Langan Village `Attaches 
Importance, Propagates, Arranges, Examines, Protects, Strikes, and 
Prevents' to Do Various Work Regarding Muslim Population During 
Ramadan'' [Huochengxian langan xiang ``zhong, xuan, pai, cha, bao, yan, 
fang'' zuo hao musilin qunzhong zhaiyue qijian ge xiang gongzuo], 
Qorghas Peace Net (Online), 27 August 08; ``Religious Repression in 
Xinjiang Continues During Ramadan,'' CECC China Human Rights and Rule 
of Law Update, January 2008, 3; ``Ramadan Curbs on China's Muslims,'' 
Radio Free Asia.
    \133\ See, e.g., ``Xinjiang Government Continues Restrictions on 
Mosque Attendance,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 8; U.S. Department of State, International Religious 
Freedom Report--2008, China.
    \134\ See, e.g., Xinjiang Uyghur Autonomous Region Government 
(Online), ``Nur Bekri's Work Report at First Session of the 11th 
Xinjiang Autonomous Regional People's Congress'' [Zai zizhiqu shiyi jie 
renda yi ci huiyi shang nu'er baikeli suo zuo zhengfu gongzuo bao], 16 
January 08; Yeken County Government, ``Yeken County Almaty Village 
Implements `8 Acts' To Establish Safe and Sound Village.'' For 
information on the 2007 passport restrictions, see the CECC, 2007 
Annual Report, 10 October 07, 99.
    \135\ U.S. Department of State, International Religious Freedom 
Report--2008, China.
    \136\ ``China Jails Clerics for Planning Mecca Trips, Group Says,'' 
Deutsche Presse-Agentur (DPA), reprinted in Taipei Times (Online), 25 
June 08. According to the DPA article, authorities also reportedly 
punished the group for distributing copies of the Quran at a criminal 
sentencing rally.
    \137\ For more information on recent controls, see CECC 2007 Annual 
Report, 99.
    \138\ ``Record Number of Chinese Muslims To Make Mecca 
Pilgrimage,'' Xinhua, 14 November 07 (Open Source Center, 14 November 
07).
    \139\ Islamic Association of China, ed., Practical Pilgrimage 
Handbook for Chinese Muslims [Zhongguo musilin chaojin shiyong shouce], 
(Ningxia People's Publishing Company), 121.
    \140\ Ibid., 106-107.
    \141\ For more information on recent controls imposed on Muslim 
communities across China, see CECC, 2006 Annual Report, 20 September 
06, 89-91, and CECC, 2007 Annual Report, 98-100.
    \142\ Wen Ping, ``How Was the Problem Between Religion and 
Socialism Cracked--Exclusive Interview With Religious Affairs 
Administration Director Ye Xiaowen.''
    \143\ United Front Work Department (Online), ``Ningxia's `2008 
First-Term Study Class for Muslim Personnel' Opens'' [Ningxia ``2008 
nian di yi qi yisilanjiao jiaozhi renyuan dushuban'' kaixue], 14 March 
08.

                                 <all>

</pre></body></html>
